<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2008 

                              ----------                              


                        WEDNESDAY, MARCH 7, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:21 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Murray, Domenici, Bennett, Craig, 
and Allard.

                          DEPARTMENT OF ENERGY

                   Office of Environmental Management

STATEMENT OF HON. JAMES A. RISPOLI, ASSISTANT SECRETARY 
            OF ENERGY FOR ENVIRONMENTAL MANAGEMENT


              opening statement of senator byron l. dorgan


    Senator Dorgan. I call the hearing to order. Let me 
apologize for the delay, but we have had two votes on the floor 
of the Senate and they are just finishing.
    This is the first hearing of the Energy and Water 
Subcommittee this year and the first since I have assumed the 
chairmanship, and I am pleased to be in this role and working 
on so many interesting and divergent issues. I am also pleased 
to be working with my colleague Senator Domenici. I visited the 
National Laboratory at Sandia in New Mexico with Senator 
Domenici 2 weeks ago. I saw some of the scope of the 
subcommittee's jurisdiction during that visit and was very 
impressed, very interested.
    Today we have two important programs to hear from, the 
Office of Environmental Management and the Office of Civilian 
Radioactive Waste Management. I am going to put most of my 
opening statement into the record so that we can hear the 
witnesses, but let me say that the Radioactive Waste Office has 
the immediate task of submitting a license for the Yucca 
Mountain waste repository to the Nuclear Regulatory Commission 
by June 2008. The Environmental Management Office has the 
immediate and long-term task of cleaning up the contamination 
from nuclear weapons facilities that date back to the Second 
World War. It is clear to me as I look at the budget that we 
have some very serious budget problems and we will evaluate 
some of those today.


                           prepared statement


    I am going to put the rest of my statement in the record. I 
will be using a portion of that discussion during the question 
period. I want to thank both Mr. Sproat and Mr. Rispoli for 
being with us today.
    [The statement follows:]
             Prepared Statement of Senator Byron L. Dorgan
    The hearing will come to order. Thank you all for being here today. 
This is the first hearing of the Energy and Water Subcommittee this 
year and the first of my chairmanship.
    I am happy to be in this role and excited by the prospect of 
working on so many interesting and divergent issues. I am also pleased 
to be working with my colleague, and long-time chairman of this 
subcommittee, Senator Domenici.
    I visited Sandia National Laboratory in New Mexico with Senator 
Domenici two weeks ago.
    During that visit I saw some of the scope of this subcommittee's 
jurisdiction and my colleague's wealth of experience on these matters.
    Today, we have two important programs to hear from--the Office of 
Environmental Management and the Office of Civilian Radioactive Waste 
Management.
    The Radioactive Waste office has the immediate task of submitting a 
license for the Yucca Mountain waste repository to the Nuclear 
Regulatory Commission by June, 2008.
    The Environmental Management (EM) office has the immediate and 
long-term task of cleaning up the contamination from nuclear weapon 
facilities that date back to World War II.
    It is clear the proposed budget for the EM program is inadequate.
    The EM program has recognized the shortfall in requested funding 
and has proposed to focus fiscal year 2008 cleanup on the highest risk 
activities across the complex. This is obviously wise.
    But I'm concerned by the budget's implied premise that it is okay 
to delay addressing lower risk activities.
    It is very clear that this budget will lead to missed milestones 
set out in cleanup agreements with the States. In fact, the Department 
is already stating it intends to work with the States to modify these 
cleanup agreements.
    I find it unfortunate that the administration proposes to modify 
cleanup agreements based purely upon lack of funding.
    Nuclear waste cleanup is difficult work involving some of the most 
dangerous materials on earth. We all understand that difficulties arise 
in this type of work that leads to missed milestones.
    But, as I understand it, the States are often understanding in 
these circumstances and have agreed to make changes to the agreements 
when legitimate obstacles to cleanup have arisen.
    It seems too much to ask that States agree to milestone changes 
simply because the Federal Government proposes to short-change such an 
important program.
    I'm also concerned by a fiscal year 2008 budget document statement 
that says the life-cycle cost of the EM program is estimated to have 
increased by $50 billion.
    We need a better explanation for this estimated cost increase and 
what the Department is doing to reverse this escalation.
    The Department of Energy's own website has a section on the history 
of the EM program and its origins in the weapons programs that produced 
the contamination. The website notes that scientists in the weapons 
program early on advised that the resulting waste stream presented 
grave problems.
    DOE's website then notes, ``The imperatives of the nuclear arms 
race, however, demanded that weapons production and testing be given 
priority over waste management and the control of environmental 
contamination.''
    This historical observation about the Cold War period still seems 
applicable today.
    The Department's budget proposes some big increases in a few 
programs, but proposes severe decreases for Environmental Management.
    I'm concerned that we are again prioritizing other activities while 
not fully recognizing the risk of nuclear waste contamination or our 
obligation to cleanup.
    This subcommittee has members with a keen interest in seeing the 
Federal Government live up to its responsibility at these waste sites. 
I look forward to working with them toward this goal.

    Senator Dorgan. Mr. Rispoli, if you will please present 
your testimony, we will include your entire testimony as part 
of the record and you may summarize.

                   STATEMENT OF HON. JAMES A. RISPOLI

    Mr. Rispoli. Thank you, Mr. Chairman. Good afternoon, 
Chairman Dorgan, and I look forward to seeing other members of 
the subcommittee, I am sure. I am happy to be here today to 
answer your questions on the fiscal year 2008 budget request 
for the Environmental Management program. I would like to thank 
you and your subcommittee for your support in this program.
    As you know, the EM program has solved a number of cleanup 
challenges, including Rocky Flats, Fernald, and other major 
facilities that process significant amounts of plutonium and 
uranium and at one time presented challenges that seemed 
unanswerable. We are making progress on many other complex 
challenges that the program still faces. EM has been able to 
achieve notable results by addressing these challenges through 
risk reduction and prioritization and judicious use of the 
resources that you entrust to us on behalf of the American 
people.
    I realize that maybe we will not get the full benefit of 
this, but I would like to just quickly run through just some of 
the posters here that give you the idea of the before and after 
of what we have accomplished, some of the sites that we have 
closed literally just in the past year and a half. So I would 
like to start with the Rocky Flats poster. You can see the 
before and after, a significant cleanup effort, 3.6 million 
square feet of buildings demolished; the site will become a 
wildlife refuge.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The next poster is Fernald in Ohio. It is not much of a 
smaller site. Secretary Bodman and I were there with the 
Administrator of the EPA just last month to celebrate the 
closure of Fernald as well as other Ohio sites, and we will 
have a couple of shots of those as well. This will also become 
parkland, wetlands, prairie. You will notice on the right-hand 
side of the after that there actually is a 75-acre on-site 
disposal cell.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The next two are Columbus and Ashtabula, Ohio. We 
celebrated those at the same ceremony. Columbus is a Battelle 
Memorial Institute property. It is about 31 acres and it is now 
available for reuse by the owner. The Ashtabula project is a 
similar privately owned property, 42 acres, also available for 
reuse by the owner.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The next shot is Miamisburg, Ohio. Miamisburg also 
processed nuclear materials. In the case of Miamisburg you will 
notice there are three significant buildings still there that 
can be spotted in the before shot, and that is because this 
particular site is being taken over by a community reuse 
organization and the site will be put to a constructive reuse.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Some ongoing projects at other places: Oak Ridge, for 
example, where we have a very large, significant EM site, but 
at Oak Ridge, this is a picture of the Melton Valley before and 
after, where we removed 600,000 tons of rock and millions of 
cubic yards of soil that was contaminated.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    At Savannah River, recently I went to the T Area 
celebration, where we demolished 28 facilities and took care of 
problems immediately adjacent to the Savannah River. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We have a picture here next of a truck pulling into the 
Waste Isolation Pilot Plant in New Mexico with the first 
remote-handed transuranic waste shipment. We have since 
accomplished five shipments. This is very recent, within the 
past month. We have since completed five shipments of 
transuranic waste from the Idaho facility to the Waste 
Isolation Pilot Plant after getting--obtaining, with the help 
of the regulator in the State of New Mexico and the EPA, the 
permits that we needed to be able to do this, a very 
significant accomplishment for us.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    I would like to show you a shot of a troubled project. This 
is the K Basins at Hanford. It has been a very, very difficult 
and challenging project. Spent nuclear fuel on the left below 
22 feet of water, that we had to retrieve and then deal with 
all of the disintegrated pieces that derived from that fuel, 
again through 22 feet of water, with workers working with 
manipulators straight down through that to maneuver and pick up 
the pieces. You can see pictures of them in the center as well 
as on the right side of the cleanup as it was completed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    This is important. These basins are very close to the 
Columbia River and it is important to us to get these emptied 
out so that we can get on with ensuring that there is no 
contamination to the river from those.
    The Idaho poster shows a very significant event. The 
Department had statutory authority to, after waste was removed 
from tanks, to close the tanks by grouting them with only de 
minimis material left in the tanks. It is a relatively new 
statutory authority, section 3116 of the 2005 National Defense 
Authorization Act, and this was the first application of that 
authority, at Idaho during the week of Thanksgiving, 2006.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These cleanup successes were accomplished by the 
collaboration of DOE, the Congress, the States, and the 
national regulatory agencies, Indian nations, and communities, 
focusing on a common vision. All these completions and 
accomplishments should be recognized as results derived from 
partnerships that were founded on mutual respect and 
collaboration.
    The task before us is very complex. We face challenges of 
having to develop and deploy new technologies as we proceed. We 
recognize our regulatory commitments and must focus on our 
urgent risks. At the same time, we are improving our management 
performance and incorporating new project scope, and in many of 
the projects we discover that the contamination is far greater 
than we had anticipated. But despite all of these, we are 
resulting and achieving progress.
    First and foremost, safety is our top priority. We will 
continue to maintain and demand the highest safety performance. 
We believe that every one of our workers deserves to go home as 
healthy as he or she was when they came to work in the morning.
    One of my goals as Assistant Secretary is that at least 90 
percent of our portfolio will meet or beat our cost and 
schedule targets. Over the past year, we have personally 
conducted quarterly performance reviews of all of our projects 
with our leadership team. I can tell you today that we have 
shown measurable improvement, but we have yet to realize the 
full potential of implementing our management systems. So we 
will renew our emphasis on applying these principles as we go 
forward. We have not yet attained the appropriate skills mix to 
most effectively implement our procurement and project 
execution strategies, so we are in the process of strengthening 
those capabilities.
    Based on the results we are already seeing, I am optimistic 
that we can fulfill these multi-year objectives to be a truly 
high-performing organization.
    As Secretary Bodman stated yesterday before the House 
Appropriations Energy and Water Development Subcommittee, the 
Federal Government has an obligation to address the 
environmental legacy of nuclear weapons production. Our request 
of $5.655 billion consists of three appropriations: defense 
environmental cleanup, non-defense environmental cleanup, and 
the Uranium Enrichment Decontamination and Decommissioning 
Fund.
    In keeping with the principles of reducing risk and 
environmental liabilities, our 2008 request will support the 
following priority activities. First is stabilizing radioactive 
tank wastes in preparation for treatment. This is about 31 
percent of our request. We consider it to be the most clear and 
imminent risk that we address in our program. Storing and 
safeguarding nuclear materials and spent nuclear fuel, which is 
about 17 percent of our request. Dispositioning transuranic 
low-level and other solid waste, about 16 percent of our 
request; and remediating major areas at our sites and 
decontaminating and decommissioning excess facilities, which is 
about 26 percent of our request. Examples of milestones and 
planned activities by site-specific categories can be found in 
my formal statement, Mr. Chairman, that I request be accepted 
for the record.
    This budget requests and reflects difficult decisions to 
focus funding on activities we have identified to reduce the 
highest risks we face. Some of these funding decisions are not 
driven by existing compliance agreements. Therefore, this 
budget request does not cover some of the lower risk-reducing 
activities required under existing compliance agreements.

                           PREPARED STATEMENT

    Mr. Chairman and members of the subcommittee, let me assure 
you that we will continue to work with this subcommittee and 
our regulators in implementing our risk reduction approach, 
using the resources you provide to ensure the best possible 
protection for the public. Challenges lie ahead, but we are 
focused on our objectives--safety, performance, cleanup, and 
closure. I look forward to continuing to work with this 
subcommittee and the Congress to address your concerns and 
interests, and I would be pleased to answer your questions 
during the hearing. Thank you, sir.
    [The statement follows:]
              Prepared Statement of Hon. James A. Rispoli
    Good morning, Chairman Dorgan and members of the subcommittee. I am 
pleased to be here today to answer your questions on the President's 
fiscal year 2008 budget request for the Department of Energy's 
Environmental Management (EM) program. I want to thank the subcommittee 
for support of the EM program.
    The EM mission was undertaken to address the safe and successful 
cleanup of the Cold War legacy brought about from five decades of 
nuclear weapons development and government-sponsored nuclear energy 
research. This mission, as I pointed out last year, is both inherently 
challenging and innately beneficial to the American people. As this 
committee knows the EM program has solved several cleanup challenges, 
including Rocky Flats and Fernald, that at one time seemed 
unanswerable. We are also making progress on the many other complex 
challenges that the program still faces. Since I last appeared before 
this committee, EM has been able to achieve notable results by 
addressing these challenges through a risk reduction and prioritization 
strategy and a judicious use of the resources that Congress entrusts to 
us. EM is implementing this prioritized, risk reduction strategy 
supported by the crucial tenets of safety, performance, cleanup, and 
closure.
    The President's fiscal year 2008 budget request will allow this 
prioritized work on these important cleanup and closure projects to 
continue across the complex. For the EM program, the President's budget 
request for fiscal year 2008 is $5.66 billion. We've been able to 
achieve a decrease of $173 million from the fiscal year 2007 request by 
employing a thoughtful balance of reducing risk and completing cleanup 
for the EM program. Nearly half of our budget request will go towards 
our highest risks activities in stabilizing tank waste, nuclear 
materials, and spent nuclear fuel, and another quarter is going to 
clean up contaminated soil, groundwater, and unused facilities. With 
this request, we are continuing on our strategic course to address high 
priority-tank waste treatment and radioactive waste disposition while 
preserving our site completion and closure drive.
    With this budget request, the Defense Waste Processing Facility at 
Savannah River Site (SRS), the Advanced Mixed Waste Treatment Facility 
at Idaho National Laboratory (INL), and the Toxic Substance Control Act 
Incinerator at Oak Ridge Reservation (ORR) will continue to operate, 
along with the initiation of operations at the Depleted Uranium 
Hexafluoride (DUF<INF>6</INF>) conversion facilities in both Ohio and 
Kentucky. Design and construction will continue at the Waste Treatment 
Plant at Hanford, the Sodium-Bearing Waste Treatment Plant at INL, and 
the Salt Waste Processing Facility at SRS. Tank farm operations will 
continue at Hanford, INL, and SRS along with spent nuclear fuel 
receipt, storage, and cleanup.
    At the SRS, this request will support ongoing nuclear material 
processing in H-Canyon and plutonium vitrification design to support 
ultimate disposition. At Hanford, it supports consolidation of 
plutonium and unirradiated category 1 and 2 nuclear fuel to an off-site 
location, pending a consolidation decision. Consolidation of enriched 
uranium from INL to an off-site location, and design and long-lead 
procurement for the U-233 disposition project at Oak Ridge Reservation 
is also supported in this request.
    This request enables transuranic (TRU) waste projects to continue 
with priority for INL and Los Alamos National Laboratory (LANL) TRU 
waste. Other contact and remote-handled TRU shipments to the Waste 
Isolation Pilot Plant (WIPP) are also supported. Low-level radioactive 
waste and mixed low-level radioactive waste activities will be 
supported at Hanford, Nevada Test Site (NTS), INL, SRS, and ORR.
    The request will allow high-priority waste retrieval, soil and 
groundwater remediation, and decontamination and decommissioning (D&D) 
of excess facilities at Hanford, INL, SRS, ORR, Portsmouth, Paducah, 
LANL, and other sites. In addition, the request supports targeted 
technology development and deployment in support of high-level waste, 
soil and groundwater, and facility D&D.
    With this budget request, EM will achieve our goals for risk 
reduction and cleanup completion at:
  --Lawrence Livermore National Laboratory-Site 300, California;
  --Inhalation Toxicology Laboratory, New Mexico;
  --Pantex Plant, Texas;
  --Sandia National Laboratory, New Mexico; and,
  --Argonne National Laboratory-East, Illinois.
    As cleanup work is completed at sites with continuing missions, EM 
will transfer long-term surveillance and monitoring activities to the 
cognizant program office or, for those sites without a continuing 
mission, to the Office of Legacy Management.
    The fiscal year 2008 budget request will allow the EM cleanup 
program to reduce risk, honor commitments and produce results worthy of 
the investment of the American people. We are committed to ensuring 
strong management of this complex cleanup work to secure safe and 
efficient progress that protects the public, our workers, and the 
environment. We have shown we can deliver meaningful results. Your 
continued support will allow us to deliver results important for today, 
as well as for generations to come.
                         risk reduction results
    The results being delivered by the EM program's risk reduction and 
prioritization strategy are proving that linking safety, performance, 
cleanup, and closure can lead to significant outcomes. We are 
communicating and discussing our challenges with our State and Federal 
regulators, Congress, the communities, and other interested parties. We 
believe that reasonable solutions are best found through open 
interaction with all interested parties. Recently, we celebrated 
another success at the completion ceremonies for the Fernald, Ashtabula 
and Columbus sites. Cleanup successes achieved with the assistance of 
representatives from Congress, the State and national regulatory 
agencies, and the communities, collaborating and focusing on a common 
vision. It is the latest demonstration of our progress following the 
earlier completion of cleanup at Rocky Flats in Colorado, the Kansas 
City Plant in Missouri, and the Lawrence Livermore National Laboratory-
Main Site in California. All these completions should be recognized as 
results that have been borne from partnerships founded on mutual 
respect and collaboration.
    EM has also made other significant progress:
  --Stabilizing and packaging for disposition all plutonium residues, 
        metals, and oxides (SRS and Hanford);
  --Producing well over 2,000 cans of vitrified high-level waste from 
        radioactive tank liquid wastes (SRS and the West Valley 
        Demonstration Project);
  --Retrieving and packaging for disposal over 2,100 metric tons of 
        spent nuclear fuel from the K-Basins on the Hanford site to 
        protect the Columbia River;
  --Characterizing, certifying, and shipping close to 37,000 cubic 
        meters of TRU waste from numerous sites to WIPP for permanent 
        disposal;
  --Disposing of more than 965,000 cubic meters of legacy low-level 
        waste and mixed low-level waste (contaminated with hazardous 
        chemicals); and
  --Eliminating 11 out of the 13 high-risk material access areas 
        through material consolidation and cleanup.
    In addition, on a site-specific level, we have:
  --Initiated pre-conceptual design of the Plutonium Disposition 
        Facility at SRS;
  --Completed disposal at WIPP of all legacy drummed TRU waste from 
        SRS;
  --Completed demolition of the 232-Z facility at Hanford;
  --Completed clean up at the Melton Valley area and the D&D of three 
        gaseous diffusion buildings at the ORR (K-29, 31 and 33) at 
        ORR;
  --Disposed of over 8,500 tons of scrap metal from the Portsmouth 
        site; and
  --Completed the first remote-handled TRU waste shipments to the WIPP 
        from INL.
                         solving the challenges
    The task before us is extremely complex. We sometimes face the 
challenge of having to engineer new approaches or invent new 
technologies as we proceed. Technologies were not available or 
sufficiently effective, our regulatory environment has continued to 
change, performance issues have hindered progress, new scope has been 
added to our program, and greater than anticipated contamination has 
been found for some existing cleanup. But ingenuity and hard work are 
resulting in progress.
    DOE is committed to resolve this cleanup in partnership with our 
stakeholders and regulators. The consequences of inaction pose 
unacceptable risks to our environment and the public.
    In continuing to address these challenges, EM is focusing its 
cleanup efforts on the reduction of high risk issues to most 
efficiently invest the department's fiscal year 2008 funding request. 
We intend to overcome these challenges in collaboration with our 
partners, dealing openly with any impacts to previously predicted cost, 
schedule and performance. I want to assure you that we will meet these 
challenges with the energy and dedication that have demonstrated our 
steadfastness to our mission and our commitment to the public.
    First and foremost, safety is our top priority. We will continue to 
maintain and demand the highest safety performance. We have taken 
measures to fully integrate safety into our project designs at an 
earlier stage while assuring our line project teams have the necessary 
experience, expertise, and training. Every worker deserves to go home 
as healthy as she or he was when they came to work in the morning. 
Safety will remain a cornerstone in the execution of our mission 
objectives.
    We are actively engaged, both within the department and externally 
with our regulators and stakeholders, in identifying issues that impact 
our mission objectives. We have been challenged by lower than expected 
performance levels, increased scope, and unrealized planning 
assumptions. As we identify issues that could affect future performance 
and regulatory commitments, we are taking significant steps to improve 
our operations in planning and executing our work. We are applying 
lessons learned to help prevent future occurrences that will impact our 
planning and commitments.
    One of my goals as Assistant Secretary is that at least 90 percent 
of our ``projectized'' portfolio will meet or exceed our cost and 
schedule targets. We have begun the process of integrating our 
management tools into our business processes. Over the past year, I 
have personally conducted Quarterly Performance Reviews of all EM 
projects with our leadership team. I report to you that we have showed 
progress but we have yet to realize the full potential of implementing 
our management systems and better applying risk management principles--
that is, identifying project uncertainties and developing mitigation 
measures. Some of our projects have fallen short of expected 
performance, but we are engaging our field management contractors with 
state-of-the-practice project management methods.
    Over the last year, it has become apparent that we have not yet 
attained our full potential in our procurement and execution of 
projects. We have instituted measures to strengthen our emphasis on 
program execution. This multi-year objective already is producing 
results that should provide more effective management in the future. 
This initiative is being coupled with additional training for Federal 
managers and staff to enhance project management and acquisition 
skills. This integrated approach will deliver dividends for our 
managers in the long term.
    We are improving our ability to ensure that proper procurement 
vehicles are available to meet our acquisition strategies. We are 
taking a new look at contract types and fee structures within our 
contracts. EM must acquire the best services including those of small 
business, to meet our business objectives and to become a top-
performing organization.
    I have asked my senior leadership at Headquarters and in the field 
to take immediate actions to ensure that everyday operating processes 
reflect lessons learned. Lastly, in conjunction with the National 
Academy of Public Administration, EM has undertaken a review of our 
organization and its associated functions and authorities. To date, the 
process has identified areas for improvement, along with some 
refinements of our organizational alignment. During the next few 
months, EM will be implementing the resulting recommendations to ensure 
we have an organizational structure that will enhance our ability to 
respond to the needs of the mission.
                  the fiscal year 2008 budget request
    The department's fiscal year 2008 budget request for defense EM 
activities totals $5,655 million. The request consists of three 
appropriations, Defense Environmental Cleanup, Non-Defense 
Environmental Cleanup, and the Uranium Enrichment Decontamination and 
Decommissioning Fund.
    The fiscal year 2008 budget request reflects safety as its utmost 
priority. The Office of Environmental Management is committed to our 
safety principles and to maintaining the highest safety performance to 
protect the workers, the public and the environment.
    The budget request reflects prioritizing program work to balance 
the goals of risk reduction; completing ongoing work to achieve 
completion at four sites; and, meeting our environmental commitments. 
For fiscal year 2008, EM's funding priorities are listed in order of 
risk, to best address our cleanup challenges:
  --Requisite safety, security, and services across EM cleanup sites;
  --Radioactive tank waste storage, treatment, and disposal;
  --Spent nuclear fuel storage, receipt, and remediation;
  --Solid waste (transuranic, low-level, and mixed low-level wastes) 
        treatment, storage, and disposal;
  --Special nuclear materials storage, processing, and disposition;
  --Soil and groundwater remediation; and
  --D&D of contaminated facilities.
    Examples of milestones and planned activities for fiscal year 2008 
by site-specific categories are:
Hanford
            Richland
    Consolidate, package, and remove of spent nuclear fuel and other 
radioactively-contaminated elements within the K Basins (K-East and K-
West).--The K Basins project is a high priority, risk reduction 
activity due to its close proximity to the Columbia River. The goal of 
this project is removal of all spent nuclear fuel, radioactive sludge, 
contaminated K Basin water, and radioactive debris from the K Basins. 
The endpoint of the K Basins cleanup will mean the removal of more than 
55 million curies of radioactivity that pose a threat of leakage to the 
surrounding environment, including the Columbia River.
    Amplify River Corridor remediation activities for Reactor Areas D, 
F, and H.--The River Corridor Closure Project will complete remediation 
of contaminated waste sites; the D&D and demolition of facilities that 
are adjacent to the Columbia River; and placement of eight reactors 
into an interim safe storage condition. The work performed within the 
River Corridor Closure Project includes digging up contaminated soil, 
constructing interim safe storage (cocooning) of the reactors, 
demolishing facilities in the old reactor complexes and facilities in 
the 300 Area, disposing of waste in the Environmental Restoration 
Disposal Facility, and constructing surface barriers or caps over 
contaminated sites.
    Continue retrieval of contact handled suspect transuranic waste and 
scheduled shipments to WIPP.--The Hanford Site contains thousands of 
containers of suspect transuranic waste, low-level, and mixed low-level 
wastes. The end point of this project will include the retrieval of 
contact-handled suspect transuranic waste in the low-level burial 
grounds, the treatment of mixed low-level waste, the disposal of low-
level waste, and certification and shipment of transuranic waste to 
WIPP.
    Continues on track groundwater/vadose zone remediation 
activities.--Due to 40 years of vast weapon production processes, 
Hanford's groundwater has been contaminated with carbon tetrachloride, 
chromium, technetium 99, strontium, and uranium plumes. EM is dedicated 
to preventing the potential for contaminates reaching the groundwater 
by: decommissioning an additional 100 unused groundwater wells; 
monitoring 700-plus wells for contaminants of concern above drinking 
water standards; and, commencing design of final remediation actions to 
address carbon tetrachloride and technetium plumes.
            Office of River Protection
    Sustain tank farm closure processes and maintain the tanks in a 
safe and compliant condition.--The radioactive waste stored in Hanford 
tank farms has been accumulating since 1944. Due to the age of the 
tanks, a number have leaked in the past into surrounding soil and 
groundwater. In order to reduce the risk of future tank leaks into the 
environment, the overall objectives of this project include the 
stabilization of radioactive waste stored underground in tanks, 
including retrieval, treatment, disposal, and closure of the 
facilities.
    Progress on path forward for the Waste Treatment and Immobilization 
Plant.--The Waste Treatment and Immobilization Plant (WTP) is critical 
to the completion of the Hanford tank waste program by providing the 
primary facility to immobilize (vitrify) the radioactive tank waste at 
the Hanford Site. The WTP complex includes five facilities: the 
Pretreatment Facility, the High-Level Waste Facility, the Low-Activity 
Waste Facility, the Balance of Facilities, and the Analytical 
Laboratory. In fiscal year 2008, the WTP project team plans to 
complete: close-in of the annex building in the Low-Activity Waste 
Facility; installation of roofing and completion of the building shell 
for the Analytical Laboratory; construction of the water treatment 
building in the Balance of Facilities; and renewal of construction for 
the High-Level Waste Facility and the Pretreatment Facility.
Idaho
    Transfer spent nuclear fuel from wet to secure dry storage.--
Promote the safe and secure receipt, dry storage, and packaging and 
future transfer of the spent nuclear fuel to a Federal geologic 
repository.
    Continue shipments of transuranic waste to the WIPP.--Maintain 
program activities that support waste characterization, packaging, and 
transportation of remote-handled transuranic waste to WIPP that lead to 
reduced surveillance and operation costs.
    Pursue ongoing sodium-bearing waste treatment facility 
construction, including efforts to gain necessary regulatory approvals 
for sodium bearing waste treatment and disposal.--The overall objective 
of this project is treatment and disposal of the sodium-bearing tank 
wastes, closure of the tank farm tanks, and performance of initial tank 
soils remediation work. Construction and operation of the sodium-
bearing waste facility will reduce potential risk to human health and 
the environment by preventing the potential migration of contamination 
into the Snake River Plain Aquifer, which is a sole-source aquifer for 
the people of Southeastern Idaho.
Los Alamos National Laboratory
    Characterize, certify, and ship above-grade transuranic waste 
inventory.--The Solid Waste Stabilization and Disposition Project 
includes the treatment, storage, and disposal of legacy transuranic and 
mixed low-level waste generated between 1970 and 1999 at LANL. Final 
disposal of the legacy transuranic waste from LANL will reduce risk to 
workers, as well as reduce security costs associated with transuranic 
waste.
    Promote soil and water remediation and monitoring.--The LANL Soil 
and Water Remediation Project's objective is to identify, investigate 
and remediate, when necessary, areas with chemical and/or radiological 
contamination attributable to past Laboratory operations.
    In fiscal year 2008, in order to fulfill the objective of 
protecting and monitoring the regional aquifer, as well as long-term 
surveillance and monitoring to provide necessary safeguards and 
protection for surface and ground waters, the following activities are 
planned:
  --Perform groundwater monitoring at all major watersheds: LA/Pueblo; 
        Mortandad; Canon de Valle; Sandia; and in close proximity to 
        the major waste sites;
  --Conduct stormwater sampling and implement erosion control measures;
  --nstall and monitor four wells in Pajarito and Bayo canyons; and
  --Complete construction of 260 Outfall Corrective Measures for 
        alluvial and surface water treatment system.
Oak Ridge
    Continue design of U-233 down-blending project and begin Building 
3019 modifications.--Down-blending the Building 3019 inventory for 
disposition is in accordance with the national non-proliferation goals 
by making the U-233 material unsuitable for use in weapons and reducing 
security costs at the Oak Ridge National Laboratory.
    Ship contact-handled transuranic waste to WIPP.--Process 250 cubic 
meters of contact-handled transuranic debris and 170 cubic meters of 
remote-handled transuranic debris with shipments to the WIPP; and 
continue to dispose of low-level/mixed low-level waste at the NTS.
    Complete the Molten Salt Reactor Experiment fuel salt removal 
remediation project.--Upon completion of active remediation, 
surveillance and maintenance activities of the Molten Salt Reactor 
Experiment facility will be provided until decontamination and 
decommissioning of the site has occurred.
    Decontaminate and decommission building K-25 and K-27, including 
completing demolition of the K-25 west wing.--Surveillance and 
maintenance of the K-25 and K-27 buildings will be continued in order 
to maintain safe conditions. Demolition of K-25 east wing and K-27 will 
occur after the decontamination and decommissioning process.
Paducah
    Complete construction and startup of the deleted uranium 
hexafluoride conversion facility (DUF<INF>6</INF>).--The Paducah 
DUF<INF>6</INF> conversion facility is scheduled to begin operation in 
fiscal year 2008. The DUF<INF>6</INF> conversion facility will convert 
depleted uranium hexafluoride into a more stable form, depleted uranium 
oxide, which is suitable for reuse or disposition. The depleted uranium 
oxide will be sent to a disposal facility, the hydrogen fluoride by-
products will be sold on the commercial market, and the empty cylinders 
will be sent to disposal or reused.
    Store, treat, and dispose of legacy waste and newly generated 
waste.--The Paducah Gaseous Diffusion Plant is responsible for some 
waste streams generated by the United States Enrichment Corporation's 
operation of the Plant. In fiscal year 2008, we plan to complete 
expansion of five new sections of on-site landfill for non-hazardous 
waste disposal; perform ongoing characterization, packaging, treatment 
and disposal of 50 cubic meters of newly generated waste (mixed and 
low-level); and complete legacy low-level waste characterization, 
packaging, and disposal. The continued shipment and disposal of the 
waste will reduce potential for release into the environment from aging 
containers.
Portsmouth
    Finalize construction and startup of the uranium hexafluoride 
conversion facility.--The Portsmouth DUF<INF>6</INF> conversion 
facility is scheduled to begin operation in fiscal year 2008. Like the 
Paducah facility, the DUF<INF>6</INF> conversion facility will convert 
depleted uranium hexafluoride into a more stable form, depleted uranium 
oxide, suitable for reuse or disposition.
    Store, characterize, treat, and dispose of legacy waste generated 
by activities at the Portsmouth Gaseous Diffusion Plant.--We will 
continue to characterize, treat, and dispose of any newly generated 
waste; develop the management and disposal of low-level waste 
associated with 438 converter shells in storage with potentially 
classified waste; disposition of excess site equipment (vehicles, 
scrap, etc.) and disposition of poly bottle solutions which contain 
liquids with high fissile material and are required to be treated prior 
to disposal.
    Continue transition activities from cold shutdown mode to 
decommissioning.--In fiscal year 2008, there is an increase in funding 
to support the transition of the Gaseous Diffusion Plant from a cold 
shutdown to decontamination and decommissioning. Activities include: 
conducting environmental monitoring and reporting for groundwater, 
surface water, sediment, biological, vegetation, and associated sample 
collection; performing enhanced uranium deposit mitigation measures for 
criticality concerns in the process buildings to eliminate near-term 
safety issues; and initiating soil and groundwater investigation and/or 
remediation underneath approximately 140 buildings.
Savannah River Site
    Consolidate on-site Plutonium to K Area.--In order to meet the 
Department's Design Basis Threat criteria, plutonium at SRS is being 
consolidated into one Category 1 Special Nuclear Materials Storage 
Facility. The receipt, storage, and disposition of these special 
nuclear materials at the SRS allows for de-inventory and shutdown of 
other DOE complex sites, while providing substantial risk reduction and 
significant mortgage reduction savings to the Department.
    Ship all legacy transuranic waste to WIPP and treat low-level waste 
and mixed low-level waste.--In fiscal year 2008, SRS plans to dispose 
of transuranic waste previously characterized as mixed low-level waste; 
dispose of low-level waste and newly generated waste, including soil, 
groundwater and decontamination and decommissioning wastes; dispose of 
mixed low-level waste inventory and newly generated waste; and dispose 
of hazardous waste inventories, thus reducing potential exposure to 
project workers.
    The end-state for this project is the shipment of all legacy 
transuranic waste to the WIPP, the treatment of PUREX waste, and the 
elimination of all legacy inventories and disposition of newly 
generated low-level waste, mixed low-level waste, and hazardous waste.
    Continue groundwater corrective actions across the Site.--The SRS 
is working to prevent the spread of contamination into adjoining 
groundwater aquifers and nearby surface waters. Existing contamination 
in vadose zones, groundwater and surface water/sediments are currently 
being cleaned up, thereby reducing the risk to site workers, the public 
and the environment.
    Treat, stabilize, and dispose legacy radioactive waste stored in 
underground storage tanks.--The continuation of the design and 
construction of the Salt Waste Processing Facility will aid the Defense 
Waste Processing Facility in the process of safely disposing of the 
liquid tank wastes. The Salt Waste Processing Facility will separate 
the high-activity fraction from the low-activity fraction of the salt 
waste stored in the underground tanks at the SRS. The completion of the 
Salt Waste Processing Facility will support the mission of SRS in 
meeting its Federal Facilities Agreement commitments for waste tank 
disposition.
Waste Isolation Pilot Plant
    Operate the WIPP in a safe manner to support disposal capabilities 
for transuranic waste.--The WIPP in Carlsbad, New Mexico, is the 
nation's only mined geologic repository for the permanent disposal of 
defense-generated transuranic waste. All of the defense-generated 
transuranic waste from eligible generator sites must come to WIPP for 
receipt, handling, and disposal.
                               conclusion
    The fiscal year 2008 budget request enables risk reduction to 
continue. Challenges lie ahead but we are focused on our objectives and 
our strategy. Safety, performance, cleanup, and closure underpin our 
actions and initiatives. We are committed to work with all interested 
parties to resolve issues. We look forward to continuing to work with 
this subcommittee and the Congress to address your concerns and 
interests. Our success relies on our effective partnerships with our 
regulators, the communities, and our contractors to produce progress in 
accomplishing meaningful results for the American public.
    I look forward to a continuing dialog with you and the 
subcommittee. This concludes my formal statement for the record. I will 
be pleased to answer any questions at this time.

    Senator Dorgan. Mr. Rispoli, thank you very much.
    We will hear from Mr. Sproat and then ask questions. But we 
have been joined by the ranking member, former chairman of this 
subcommittee, Senator Domenici. Senator Domenici, welcome.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman. I am 
pleased to say a few words and thank you for that.
    First, thanks to the witnesses for coming. I look forward 
to working with you as we put together this balanced bill for 
fiscal year 2008. I am glad that you are starting out this way, 
which would indicate to me that you want to get a bill; you do 
not want to go through what we did last year, with no bill.
    I look forward to addressing many important issues 
revolving around research programs that can have a real impact 
on our energy security and will support cutting edge scientific 
research. We will also face a number of challenging issues, 
such as Katrina recovery and environmental cleanup. I 
appreciate your willingness, Mr. Chairman, to visit New Mexico 
to tour our great labs and hear from the people who have 
devoted their professional careers to supporting our Nation's 
security and nuclear deterrent. You did that with me and I am 
most appreciative and will not forget that.
    Mr. Chairman, you have also selected a great staff. Doug 
Clapp and Franz Wuerfmannsdobler are exceptional and will serve 
the subcommittee well. Along with my two veteran people, I 
think we have a good team. Roger Cockrell is the best guy in 
town and you kept him on water projects and he will serve us 
well, Democrat and Republican.
    I noted earlier that there are many challenging matters. 
Two of those issues are the topic of the hearing today, Yucca 
Mountain and environmental cleanup. Yucca Mountain, the budget 
provides $494 million and makes the development and submission 
of the license application to the Nuclear Regulatory Commission 
(NRC) in 2008 a top priority.
    I am going to skip through the Yucca, assuming that you 
have covered most of it, and go to the matter that is haunting 
the laboratory at Los Alamos with reference to cleanup. I think 
you know there is a big problem there. But I would say with 
reference to Yucca just one thing. Last year Senator Reid and I 
developed legislation to address the potential that waste might 
remain on site well past 2017, opening date for Yucca Mountain. 
As Mr. Sproat pointed out in the written testimony, at the 
Federal Government legal liability increases by $500 million 
annually each year Yucca Mountain is delayed. Is that correct?
    Mr. Sproat. That is correct.
    Senator Domenici. I will continue to work with the majority 
leader and the chairman to see if we can find an acceptable 
compromise that will reduce our legal liability in the near 
future. I hope you can think about that and work with us on 
that. That is a lot of money going right out the window for 
nothing.
    Mr. Sproat. Yes, sir.
    Senator Domenici. The budget provides for environmental 
management at $5.6 billion for defense and non-defense. The 
budget is in steady decline from the fiscal year 2006 level 
that was a record at $7.3 billion. This is a reduction of 
nearly 25 percent. You have got a real job.
    In particular, I am concerned at what this will mean to Los 
Alamos. Just 2 years ago the Department entered into a consent 
agreement, Mr. Chairman, with Los Alamos and the State to clean 
this up by 2015. That is a very important document and a very 
important commitment. Unfortunately, the budget requests for 
the past 2 years have been wildly inconsistent and insufficient 
to deliver on the agreed-upon cleanup milestones.
    I have spoken with Secretary Bodman regarding my 
frustration with the lack of funding consistency and I believe 
the Department needs to set a budget baseline that matches our 
cleanup goals and then deliver on these commitments, not 1 year 
but multiple years. We simply cannot continue to make 
environmental management the bill payer for every new important 
R&D program.

                           PREPARED STATEMENT

    I also realize that I need to make this appeal directly to 
OMB. I will do that, which has held the Department's budget 
flat. But when you have a consent agreement it would seem to me 
that you have got to pay for it. I understand the Secretary 
will go to New Mexico and try to work out something that is 
more doable, but yet over 12 or 15 years will do the job. We 
will all be interested in whether that works.
    Thank you, Mr. Chairman.
    [The statement follows:]
             Prepared Statement of Senator Pete V. Domenici
    Mr. Chairman, I would like to welcome you to your first budget 
hearing as chairman of the Energy and Water Subcommittee. I look 
forward to working with you as we put together a balanced bill for 
fiscal year 2008.
    I look forward to addressing many important research programs that 
can have a real impact on our energy security and will support cutting 
edge scientific research. We will also face a number of challenging 
issues, such as the Katrina recovery and environmental cleanup.
    I appreciate your willingness to visit New Mexico to tour one of 
our great labs and hear from the people who have devoted their 
professional careers to supporting our Nation's security and nuclear 
deterrent.
    It means a lot to me that you would make your first laboratory 
visit in New Mexico.
    Mr. Chairman, you have also selected great staff--Doug and Franz 
are exceptional and will serve the subcommittee well. We will also 
continue to share the services of Roger Cockrell--the best water guy in 
town.
    Mr. Chairman, as I noted earlier there are many challenging policy 
matters facing this subcommittee. Two of those issues are the topic of 
this hearing today--Yucca Mountain and environmental cleanup.
                             yucca mountain
    This budget provides $494 million and makes the development and 
submission of the license application to the NRC in 2008 a top 
priority.
    I believe that the Secretary recognizes the importance of ensuring 
that the license is of the highest quality and can be vigorously 
defended in 2008.
    The Department has taken a new approach to standardizing the 
canisters used to package and ship spent nuclear fuel to the repository 
for storage. I am interested in this approach, but want to make sure 
this solution will cut costs.
    I know the Department is very serious about completing Yucca 
Mountain by 2017; but the Congress still must pass authorizing 
legislation in order for Yucca Mountain to stay on even this new 
schedule. Although, I will assist in anyway I can in moving this 
legislation, I am not confident that this language will pass without 
significant changes, if at all.
    Last year, Senator Reid and I developed legislation to address the 
potential that waste might remain on site well past the proposed 2017 
opening date for Yucca Mountain. As Mr. Sproat pointed out in his 
written testimony that the Federal Government's legal liability 
increases by $500 million annually each year Yucca Mountain is delayed.
    I will continue to work with both the majority leader and Chairman 
Dorgan to see if there is an acceptable compromise that will reduce our 
legal liability in the near future.
                        environmental management
    The budget provides $5.6 billion for defense and non-defense 
cleanups. This budget is on a steady decline from the fiscal year 2005 
record level of $7.3 billion. This is a reduction of nearly 25 percent.
    I understand the Department has attempted to prioritize cleanups 
based on risk in order to fit within the budget constraints. But the 
facts paint a very different picture. The budget cuts will undermine 
the Department's existing cleanup obligations and will push back 
completion dates.
    In particular, I am concerned about what this will mean for Los 
Alamos. Just 2 years ago the Department entered into a Consent 
Agreement with the State to cleanup the site by 2015.
    Unfortunately, the budget requests for the past 2 years have been 
wildly inconsistent and are insufficient to deliver on the agreed upon 
cleanup milestones.
    I have spoken with Secretary Bodman regarding my frustration with 
the lack of funding consistency. I believe the Department needs to set 
budget baselines that match our cleanups goals and then deliver on 
these commitments year after year.
    We simply can't continue to make environmental management the bill 
payer for every new important R&D initiative. I also realize I need to 
make this appeal directly to OMB, which has held the Department's 
budget flat.
    Nevertheless, I am committed to work with the laboratory, the State 
of New Mexico, the Department and Chairman Dorgan to find the 
appropriate level of funding for this cleanup effort.
    Thank you Mr. Chairman.

    Senator Dorgan. Senator Domenici, thank you very much.

       CONSEQUENCES OF A REDUCED ENVIRONMENTAL MANAGEMENT BUDGET

    Senator Dorgan. Let me make a comment that I did not make 
at the start of this and then I am going to call on Senator 
Murray for a moment. I was looking back at the web site of the 
Department of Energy. They note that scientists early on in the 
weapons programs in this country's effort to produce nuclear 
weapons advised that the resulting waste stream presented very 
grave problems, but the DOE's own web site says: ``The 
imperatives of the nuclear arms race, however, demanded that 
the weapons production and testing be given priority over waste 
management and the control of environmental contamination.''
    Well, we understand what happened and the Department of 
Energy's web site describes why it happened. Now there is a 
responsibility to address it, and I am very concerned about the 
proposed budget. What we are confronted with is a requirement 
to address these issues with a budget that is dramatically 
reduced, a budget that I think will result in substantially 
missed milestones. I am going to ask about that.
    But I know that both of you will be required today to 
support the President's budget. That is your role. But I do 
want to ask questions about the consequences. What are the 
consequences of a budget that is a 23 percent reduction in 4 
years for the EM budget? What is the basis of that, with so 
much cleanup work yet to be done across these complexes? How 
can such a great reduction in funding be proposed and what 
would be its consequences?
    So I will ask those questions, but I wanted to, following 
Senator Domenici's comments, make those observations. I am 
going to call on Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, I will just submit an opening 
statement for the record. Just let me thank you for having this 
hearing. I look forward to working with you and Senator 
Domenici on the critical issues that your subcommittee is going 
to have to address this year, and I want to thank Mr. Rispoli 
and Mr. Sproat for being here today.
    I appreciate the opportunity to talk about the importance 
of cleaning up waste across the DOE complex, but particularly 
at Hanford in my home State. I do want to just say quickly I am 
pleased the administration is keeping its commitment to getting 
the vit plant back on track and fully funded. It is a long 
process. We are in it for the long haul and I appreciate that.
    I have a number of questions and I will be asking them 
after we have heard the testimony. Thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator Patty Murray
    Thank you Chairman Dorgan for calling this meeting to examine DOE's 
cleanup efforts across the country and thank you Mr. Rispoli and Mr. 
Sproat for coming here to testify today.
    I glad to have the opportunity to talk about the importance of 
cleaning up waste across the complex and particularly at Hanford in my 
home State.
    I am pleased that the administration is keeping its commitment to 
getting the vit plant back on track and fully funded.
    I know that this is a long process and I am it in it for the long 
haul. There are several important projects ongoing at Hanford and today 
I would just like to ask a few particular questions of you Mr. Rispoli.

    Senator Domenici [presiding]. Thank you very much.
    The chairman asked if I would just proceed with where he 
was going and ask you, Mr. Sproat to, wherever you were on the 
testimony, proceed.

            Office of Civilian Radioactive Waste Management

STATEMENT OF HON. EDWARD F. SPROAT III, DIRECTOR
    Mr. Sproat. I had not started. Thank you, Senator.
    Good afternoon, Mr. Chairman, Senator Domenici, Senator 
Murray. Thank you very much and I appreciate the invitation of 
the subcommittee to talk about the President's fiscal year 2008 
appropriations request for the Office of Civilian Radioactive 
Waste Management, of which I am the Director. We have 
responsibility, as you know, to design, build, license, and 
operate the Yucca Mountain repository, the national high-level 
waste repository.
    Fiscal year 2008 is a major critical year for the national 
repository program. This is the year when we have major 
deliverables that are due: the supplemental environmental 
impact statement for the repository, certifying the licensing 
support network and submitting the license application to the 
Nuclear Regulatory Commission.
    The President's budget request, $494.5 million, will allow 
us to achieve those milestones, which are on the critical path 
to opening this repository by 2017, which is our best 
achievable date. In my written testimony, which I ask be 
introduced in the record, there are more specifics about our 
deliverables for 2008 and the other descriptions of funding of 
State and local oversight associated with the repository is 
also mentioned in that formal statement.
    Let me talk a little about the impact of the fiscal year 
2007 final appropriations, final authorization. For fiscal year 
2007, which as you know has only been passed here in the past 3 
or 4 days, the President----
    Senator Domenici. You mean appropriations, not 
authorizations.
    Mr. Sproat. I am sorry, appropriations.
    The President asked for $544.5 million for the Yucca 
Mountain program, of which was appropriated $444.5 million, 
which was $100 million less than what the President asked for. 
So right now my management team and I are in the middle of the 
effort to understand the impacts of that on the program. While 
we are still evaluating the impacts of the final 2007 
appropriation, it is likely but not yet certain that we will 
not be able to meet our best achievable schedule for opening 
the repository by March 2017. A 1-year slip is likely, but we 
are still evaluating the recovery options. So I have not given 
up on that 2017 date.
    However, we will meet our commitment to deliver the license 
application for the repository to the NRC by mid-2008. It is 
certain, however, that we will have a reduction in force, 
across the program later in fiscal year 2007 and in 2008, even 
with the full fiscal year 2008 appropriation request of $494.5 
million. Exactly how much of a reduction in force and when it 
will occur we are still evaluating.
    What I would like to talk about next is the issue of our 
ability to access or not access the Nuclear Waste Fund. I know 
certain members of this committee are probably very familiar 
with this issue. By 2009, fiscal year 2009, there is going to 
be a major turning point for this program. Sustained funding 
well above current and historic levels will be required 
starting in fiscal year 2009 if we are to complete this 
repository in 2017.
    The current funding levels will not be adequate to support 
design and, if necessary, concurrent capital purchases, 
construction, transportation infrastructure, and the 
transportation and disposal casks that we will need to begin to 
design and purchase to open the repository by 2017. Now, one of 
the problems, I think as the committee is well aware, is that 
the Nuclear Waste Fund was created by the Nuclear Waste Policy 
Act and is funded by a one mill per kilowatt-hour fee on all 
nuclear generation in the country. As of today, the fund has a 
balance of approximately $19.5 billion--that is with a ``b''--
which is invested in U.S. Treasury instruments. The Government 
receives approximately $750 million per year in revenues from 
ongoing nuclear generation and the fund averages about a 5.5 
percent annual return on its investments.
    At the present time, due to technical scoring requirements, 
the Department cannot access the Nuclear Waste Fund receipts, 
interest, or corpus for their intended use without having a 
significant negative impact on the Federal budget deficit. In 
the legislation that the administration submitted to Congress 
last year and again we submitted yesterday, the President 
proposes fixing this problem by reclassifying mandatory Nuclear 
Waste Fund receipts as discretionary in an amount equal to 
appropriations from the fund for authorized waste activities. 
Funding for the program would still have to be requested 
annually by the President and appropriated by the Congress from 
the Nuclear Waste Fund.
    While the lack of access to the fund is not critical to the 
program in fiscal year 2008, it will have a serious consequence 
in fiscal year 2009 and beyond. For each year beyond 2017 the 
repository opening is delayed, the Department estimates that 
U.S. taxpayers' potential liability to contract holders will 
increase by approximately $500 million per year. This will be 
in addition to the estimated current potential liability of 
approximately $7 billion. There will also be added additional 
costs associated with keeping the defense waste sites, 
particularly the one in Senator Murray's site, open longer than 
originally anticipated.
    So in summary, the President's fiscal year 2008 budget 
request will provide the needed funds to allow us to submit the 
construction application for Yucca Mountain in mid-2008, which 
is on the critical path. The significant reduction in the 
fiscal year 2007 funds will present challenges that I and my 
management team are working on and it puts in jeopardy our 
ability to meet the March 2017 date, but we are still working 
on some potential work-arounds.

                           PREPARED STATEMENT

    Each year's delay beyond March 2017 will result in an 
increase in taxpayer liability, and therefore I respectfully 
urge the Congress to consider and pass the President's fiscal 
year 2008 budget request and the proposed Nuclear Waste 
Management and Disposal Act which we sent up to the Hill 
yesterday.
    With that, I would be pleased to answer any questions the 
committee may have.
    [The statement follows:]
            Prepared Statement of Hon. Edward F. Sproat III
    Mr. Chairman and members of the committee, I am Edward F. Sproat 
III, Director of the Department of Energy's (DOE) Office of Civilian 
Radioactive Waste Management (OCRWM). I appreciate the invitation to 
appear before the committee to discuss the President's fiscal year 2008 
budget request for my office which has the responsibility to design, 
license, construct, and operate a repository for the disposal of high-
level radioactive waste, as defined in the Nuclear Waste Policy Act 
(NWPA) of 1982, as amended.
    When I first came to this program last summer I outlined four 
strategic objectives to implement the President's priorities during my 
tenure. They are:
  --Submit a high-quality and docketable License Application to the 
        Nuclear Regulatory Commission (NRC) no later than Monday, June 
        30, 2008;
  --Design, staff, and train the OCRWM organization such that it has 
        the skills and culture needed to design, license, and manage 
        the construction and operation of the Yucca Mountain Project 
        with safety, quality, and cost effectiveness;
  --Address the Federal Government's mounting liability associated with 
        unmet contractual obligations to move spent nuclear fuel from 
        nuclear plant sites; and
  --Develop and begin implementation of a comprehensive national 
        transportation plan that accommodates State, local, and tribal 
        concerns and input to the greatest extent practicable.
    The President's fiscal year 2008 budget request of $494.5 million 
for this program is supportive and vital to achieving these objectives.
                    fiscal year 2008 key activities
    Fiscal year 2008 will be a critical year for the program. It is 
imperative that the DOE submit a high-quality License Application to 
the NRC in 2008. This activity is on the critical path to opening the 
repository and allowing the Department to meet its contractual 
obligations to begin accepting and removing spent nuclear fuel and 
high-level radioactive waste from 131 sites around the country. This 
budget request will provide the funding needed to complete that License 
Application.
    In fiscal year 2008, our objectives are to:
  --Submit a License Application for the repository to the NRC;
  --Certify the Licensing Support Network in accordance with NRC 
        requirements and regulations;
  --Complete the Supplemental Yucca Mountain Environmental Impact 
        Statement (EIS);
  --Begin the defense of the License Application after submittal;
  --Design the standard canisters to be used by the industry to package 
        and ship spent nuclear fuel to the repository;
  --Perform critical personnel safety upgrades at the Yucca Mountain 
        site;
  --Perform the analysis and deliver the report to Congress required by 
        the NWPA on the need for a second repository; and
  --Resolve comments and issue the final EIS for the Nevada Rail Line 
        which is required to transport spent nuclear fuel to the 
        repository.
    In addition to the specific deliverables outlined above, the budget 
request also includes funds for the following activities:
  --Funding for payments-equal-to-taxes to the State of Nevada and Nye 
        County, Nevada, where Yucca Mountain is located. Our fiscal 
        year 2008 request also includes funding for the State of Nevada 
        and affected units of local government as well as funding for 
        the University System of Nevada and Nye County and Inyo County, 
        California, for independent scientific studies.
  --Funding for cooperative agreements with State regional groups and 
        other key parties involved in transportation planning. NWPA 
        Section 180(c) pilot grants will also be pursued to support 
        operational preparedness training and to refine the Section 
        180(c) program.
  --Funding for program management and integration of the project 
        components through formal baselines, procedures, and the system 
        requirements hierarchy, and for resolving cross-cutting issues 
        that impact the waste management system. This area has been 
        weak in the past and is now targeted by senior management for 
        improvement.
  --Funding for program direction which supports Federal salaries, 
        expenses associated with building maintenance and rent, 
        training, and management and technical support services, which 
        include independent Nuclear Waste Fund audit services, 
        independent technical and cost analyses, and University-based 
        independent technical reviews.
         impact of fiscal year 2007 final budget authorization
    The President's fiscal year 2007 budget request for the Yucca 
Mountain Program was $544.5 million. The final budget authority 
received for fiscal year 2007 was $444.5 million, a $100 million 
reduction. While we are still evaluating the impact of the final fiscal 
year 2007 appropriation in conjunction with the President's fiscal year 
2008 request, it is likely but not yet certain, that we will not be 
able to meet our Best-Achievable Schedule (attached) for opening the 
repository by March 2017. A 1-year slip is likely, but we are still 
evaluating recovery options. We will, however, meet our commitment to 
deliver the License Application for the repository in mid-2008.
          implications of non-access to the nuclear waste fund
    The NWPA established the requirement that the generators of high-
level nuclear waste must pay for its disposal costs. As a result, the 
Nuclear Waste Fund was created and is funded by a 1 mil per kilowatt-
hour fee on all nuclear generation in this country. As of today, the 
Fund has a balance of approximately $19.5 billion which is invested in 
U.S. Treasury instruments. The government receives approximately $750 
million per year in revenues from on-going nuclear generation and the 
Fund averages about 5.5 percent annual return on its investments. At 
the present time, due to technical scoring requirements, the Department 
cannot access the Nuclear Waste Fund annual receipts, interest or 
corpus, for their intended use without a significant negative impact on 
the Federal budget deficit. Because the monies collected are counted as 
mandatory receipts in the budgetary process, spending from the Nuclear 
Waste Fund is scored against discretionary funding caps for the 
Department. In legislation the administration submitted to Congress 
last year and has submitted again to this Congress, the President 
proposes fixing this problem by reclassifying mandatory Nuclear Waste 
Fund receipts as discretionary, in an amount equal to appropriations 
from the Fund for authorized waste disposal activities. Funding for the 
Program would still have to be requested annually by the President and 
appropriated by the Congress from the Nuclear Waste Fund.
    While lack of access to the Fund is not critical to the program for 
fiscal year 2008, it will have serious consequences in fiscal year 2009 
and beyond. Over the past 6 months, we have been developing a projected 
budget authority needs estimate by fiscal year through repository 
construction. It is based on projected funding requirements for 
construction of the repository and the transportation infrastructure 
needed to meet the Best-Achievable Schedule opening date of March 2017, 
assuming enactment of the Nuclear Waste Management and Disposal Act 
that the administration has introduced. Sustained funding well above 
current and historic levels will be required if the repository is to be 
built. Funding at current levels in future years will not be adequate 
to support design and the necessary concurrent capital purchases for 
repository construction, the transportation infrastructure, and the 
transportation and disposal casks.
    For each year beyond 2017 that the repository's opening is delayed, 
the Department estimates that U.S. taxpayers' potential liability to 
contract holders who have paid into the Nuclear Waste Fund will 
increase by approximately $500 million. This will be in addition to the 
estimated current potential liability of approximately $7.0 billion due 
to the Department's not beginning removal of spent nuclear fuel in 1998 
as required by contract. There will also be added costs associated with 
keeping defense waste sites open longer than originally anticipated. 
The Department has not yet estimated those costs. It can be seen, 
however, that each year of delay in opening the repository has 
significant taxpayer cost implications, as well as the potential for 
delaying construction of needed new nuclear power plants. Therefore, 
the administration believes it is in the country's best interest to 
expedite construction of the repository and the transportation 
infrastructure necessary to bring both defense and commercial spent 
nuclear fuel and high-level waste to Yucca Mountain.
    In summary, the President's fiscal year 2008 budget request will 
provide the needed funds to allow submittal of the construction License 
Application for Yucca Mountain by mid-2008. The significant reduction 
in requested funding for fiscal year 2007, however, will present 
challenges and puts in jeopardy the Department's ability to meet the 
March 2017 opening date. And, each year's delay beyond the March 2017 
date will result in increased potential taxpayer liability to utility 
contract holders as well as increased costs for storage at defense 
waste sites across the country. I respectfully urge the Congress to 
consider and pass the President's fiscal year 2008 budget request for 
the Office of Civilian Radioactive Waste Management.
    I would be pleased to answer any questions the committee may have 
at this time.

           BEST-ACHIEVABLE YUCCA MOUNTAIN REPOSITORY SCHEDULE
------------------------------------------------------------------------
               Milestone                               Date
------------------------------------------------------------------------
Design for License Application Complete  November 30, 2007.
Licensing Support Network Certification  December 21, 2007.
Supplemental Environmental Impact        May 30, 2008.
 Statement (EIS) Issued.
Final License Application Verifications  May 30, 2008.
 Complete.
Final Rail Alignment EIS Issued........  June 30, 2008.
License Application Submittal..........  June 30, 2008.
License Application Docketed by NRC....  September 30, 2008.
------------------------------------------------------------------------


            BEST-ACHIEVABLE REPOSITORY CONSTRUCTION SCHEDULE
------------------------------------------------------------------------
               Milestone                               Date
------------------------------------------------------------------------
Start Nevada Rail Construction.........  October 5, 2009.
Construction Authorization.............  September 30, 2011.
Receive and Possess License Application  March 29, 2013.
 Submittal to NRC.
Rail Access In-Service.................  June 30, 2014.
Construction Complete for Initial        March 30, 2016.
 Operations.
Start up and Pre-Op Testing Complete...  December 31, 2016.
Begin Receipt..........................  March 31, 2017.
------------------------------------------------------------------------

    The schedule above is based on factors within the control of DOE, 
enactment of the Nuclear Waste Management and Disposal Act, 
appropriations consistent with optimum Project execution, issuance of 
an NRC Construction Authorization consistent with the 3-year period 
specified in the Nuclear Waste Policy Act, and the timely issuance by 
the NRC of a Receive and Possess license. This schedule also is 
dependent on the timely issuance of all necessary other authorizations 
and permits, the absence of litigation related delays and the enactment 
of pending legislation proposed by the administration.

    Senator Domenici. Proceed. Do you want to go ahead?
    Senator Murray. My understanding is Senator Dorgan had to 
step out for just a short while. So if it is okay with you, 
Senator Domenici, I will go ahead and start with my questions, 
and then I am hopeful--oh, he is back.
    Senator Domenici. He has finished his statement.
    Senator Dorgan [presiding]. Thank you very much. I 
apologize. I had a relative that had a little fender-bender. 
She is fine, but needed to talk to her dad, and it was not her 
fault.
    Senator Craig. Of course, dad. I've been there.
    Senator Dorgan. Thank you both.
    Mr. Sproat, I apologize for having missed your testimony.
    Mr. Sproat. That is all right.
    Senator Dorgan. But I have read your testimony and I 
appreciate your being here.
    I will proceed to questions and I will defer my questions. 
Senator Domenici, do you want to begin?

                NUCLEAR WASTE FUND LEGISLATIVE PROPOSAL

    Senator Domenici. Mr. Chairman, I just want to extend--I 
know you have had this, but here is a very interesting proposal 
that is included in his testimony that we have not had come up 
from the administration before. I am not so sure that--I do not 
think we ought to throw it away. This $19 billion sitting 
around in the fund is not being used and the fact that we 
continue to appropriate for the repository is driving some 
programs into bankruptcy while this grows. And they have an 
idea on how to moderate it and I think maybe we should look at 
it a little. It would just be saying maybe it ought to be used 
for its intended purpose.
    Mr. Sproat. What it is intended to be used for.
    Senator Dorgan. All right. Did you wish to ask questions 
now?
    Senator Domenici. No.
    Senator Dorgan. Senator Murray, why don't you proceed.
    Senator Murray. Thank you very much, Mr. Chairman.

               SUPPLEMENTAL BULK VITRIFICATION TECHNOLOGY

    The environmental management budget literature indicates 
that liquid tank waste is the highest priority issue, but there 
is a reduction in funding for the work done in the tank farm 
activities and there is zero funding requested for the 
supplemental treatment. I understand the need to thoroughly 
investigate potential technology, but this budget runs out of 
money prior to the cold test in June. Can you explain the logic 
in that, Mr. Rispoli?
    Mr. Rispoli. I believe, Senator, that you are addressing 
the testing for the demonstration project, which is a----
    Senator Murray. Could you turn on your microphone.
    Mr. Rispoli. Sorry. Thank you.
    I believe you are discussing the supplemental bulk 
vitrification technology, which is a supplemental technology 
that we have been talking about for several years now. We met 
with--I met with the contractor and the contractor's team just 
last week. As you know, they have performed engineering scale, 
one-sixth scale tests on the technology, and they would like to 
do a full-scale test this summer.
    I would point out that in a review of that particular 
project that was done independently, a technical review, we did 
find a number of technical issues. The contractor as a result 
of that review has been working on those technical issues and 
they believe that they have solved the most significant one at 
least, which is the migration of a highly radioactive 
technetium, which is soluble, to the surface, which would not 
then accomplish its intended purpose of encapsulating it in the 
glass.
    They would like to demonstrate this in a full-scale test 
this summer. We have worked with them and we believe we can 
accomplish that full-scale test this summer.
    Senator Murray. Do you have money in the budget to do that?
    Mr. Rispoli. We believe we can--yes. Yes, Senator, we 
believe we can accomplish that this summer.
    Senator Murray. Okay, very good.

              FISCAL YEAR 2008 FUNDING FOR HAMMER PROGRAM

    Let me ask you about the funding for HAMMER. Year after 
year we get budgets with no request for HAMMER. You know what 
the facility is. It is a facility that trains many people 
actually, but our workers in particular, emergency responders 
and others dealing with hazardous material. Safety is, as you 
know, at the Hanford site a top concern and we want to make 
sure they have the best training possible.
    I am concerned because we continue to see no funding, no 
funding in the CR, or in the fiscal year 2008 request. Did you 
ask for funding for the HAMMER facility?
    Mr. Rispoli. The HAMMER facility we intend to fund by 
having the contractors at Hanford buy their training through 
the HAMMER facility. That has been a model that has worked 
successfully. We do not envision that the HAMMER facility will 
not be supported. We believe we have a strong base of support 
for that facility from within the budget at Hanford through the 
contractors that require the training for their workers.
    Senator Murray. Do you need any additional funding for 
HAMMER outside of that?
    Mr. Rispoli. Pardon me, Senator?
    Senator Murray. Do you need any additional funding for 
HAMMER outside the private contractors?
    Mr. Rispoli. I believe that we can attain the support 
required for the HAMMER facility through that mechanism.
    Senator Murray. Can you give me the budget for that 
separately from this and show me how that works on paper?
    Mr. Rispoli. Yes, I can.
    [The information follows:]
                             Hammer Funding
    The base cost of the facility is $6.4 million. This is funded by 
distributing the cost proportionally to each project at Hanford. The 
cost to conduct classes is funded through fees paid by attendees for 
each class.

                    HANFORD SITE MANAGERS VACANCIES

    Senator Murray. Okay. I wanted to ask you about the lack of 
communication between management at the Hanford site and people 
back at headquarters. I understand that has been partly 
responsible for the struggles at the Hanford Vitrification 
plant. I know that you are working on that, but we are facing a 
situation today where two of our top manager positions are 
going to be vacant. We have Roy Schepens and the pending 
retirement of Keith Klein. There are three contracts that are 
scheduled for competition and there is a lot of work to be done 
at the site. There have been a lot of changes in the contractor 
teams and now the Federal leadership is in transition. It seems 
like a lot of musical chairs out there at a time when we 
specifically need continuity and leadership.
    Can you tell me where you are on those positions?
    Mr. Rispoli. Yes, I can, Senator. Thank you. You are 
correct. Senator and members of the subcommittee, we are losing 
two highly skilled long-term professionals to retirement at the 
site out there. Roy Schepens is already physically retired and 
Keith Klein announced his retirement. In fact, he has been 
aspiring to do this for quite some time. It is the culmination 
of a remarkable career.
    I can tell you that this week we are interviewing for Roy 
Schepens' replacement at headquarters. I would also tell you 
that we actually did something a little different for the 
Federal Government. We hired a search firm because we realized 
that not everyone would look to the Government web site to look 
for this type of a position if, for example, they are in 
private industry.
    So we did everything we could to shake the trees to get 
qualified people to apply.
    Senator Murray. Are you finding qualified people?
    Mr. Rispoli. Well, I personally know none of the names, but 
that is the way it is supposed to be. It has been paneled. 
There have been a group of experts, including some people who I 
am sure you would know, that went through and reviewed the 
candidates and then forwarded them to the selecting official 
for interviews and selection. The interviews again started this 
week. I am very optimistic that that process will have yielded 
some viable candidates that we can look at for that position.
    In the case of Keith Klein, we do have some time because 
his retirement is not until the end of May. But again, given 
the time that it takes, we know that in fact Mike Weis, the 
deputy manager, will be the acting manager there. I believe you 
know Mike Weis. I am sure that he himself will be a contender 
for that position. We all have a very high degree of confidence 
in him and I believe that that will work out very well.
    I might also mention that Shirley Olinger will be the 
acting manager of the Office of River Protection and she has 
been the deputy there for quite some time as well.
    So I think in the management end for this interim period we 
are in good hands. For the one that was more imminent, we are 
interviewing now and we can go forward. You are correct in that 
we have three contracts that are being advertised. I will tell 
you that--you may recall from last year that we did appoint a 
Deputy Assistant Secretary for Acquisition and Project 
Management. We are managing these efforts centrally. The work 
is done in the field, but we are managing the time lines 
separately. Having visited there myself, I can tell you that 
the team working on those procurements is robust, they are 
competent, they are qualified. They have got people that have 
done this before. And that, coupled with our new headquarters 
structure and oversight, I feel that we can get through this 
period even with the loss of the two managers that are out 
there.
    With all of that said, Senator, I know that it is going to 
be--for the people of the community, they are going to see it 
as a tumultuous period. I think we just have to get through 
this together.
    Senator Murray. I appreciate your personal attention to 
that.
    Mr. Chairman, I have some other questions I wanted to 
submit for the record if I could.
    Senator Dorgan. Without objection.
    Senator Murray. And I appreciate your accommodation today.
    Senator Dorgan. Without objection. Thank you very much, 
Senator Murray.
    Mr. Rispoli. Thank you, Senator.
    Senator Dorgan. Senator Domenici.
    Senator Domenici. Mr. Chairman, do you want to go?
    Senator Dorgan. I will defer.
    Senator Domenici. Do you have time to hold the whole 
meeting? I cannot do the whole.
    Senator Dorgan. Yes.
    Senator Domenici. I thank you.

          MISSED CLEANUP MILESTONES AT LOS ALAMOS NATIONAL LAB

    I want to ask some questions that are parochial and if I 
get to the others, fine. But I want to talk to you, Mr. 
Rispoli, about Los Alamos missed milestones. The Department has 
proposed $140 million for Los Alamos--write that down--which is 
insufficient to clear up and clean up the milestones contained 
within the consent order that the Department entered into with 
the State in 2005. According to that June 15, 2006, baseline 
for the project, which assumes completion of all consent order 
milestones, the budget for Los Alamos would be $283 million, 
more than double the request.
    If the Department remains on its current path proposed as 
part of the 2007-2008 budgets, cleanup milestones will be 
missed and the cleanup will be delayed 2 years beyond the 
consent order deadline of 2015.
    Now, sir, I am not sure that I understand how you can 
justify a budget that forces the Department to miss agreed-upon 
milestones and will result in fines and other penalties from 
the State. Can you tell me how you intend to keep the cleanup 
on schedule with the budget baseline you have offered for the 
2008 budget?
    Mr. Rispoli. Senator, thank you. There are actually two 
parts to my answer on your question. As you know, we have been 
funding in the current fiscal year, we have been funding at a 
rate of about $141 million per year, which is the same rate 
that we were funding at in the prior fiscal year. We did that 
notwithstanding that we were in a CR situation and that the 
budget for 2007 had about $90 million. We recognized that were 
we not to fund at the $141 million level that we would have 
jeopardized milestones in the current fiscal year.
    I personally met with Mr. Curry in his offices in Santa Fe. 
He has met with me here in Washington. I have met with his 
senior-most staff. We recognize that and we believe that we 
needed to provide the funds to the lab to be able to attain 
those milestones.
    With all of that said, as you know, the State has issued 
four and is considering issuing a fifth notice of violation in 
2007, none of which are related to funding shortfalls. They are 
basically all conduct of operations. We, both myself and 
Administrator Tom D'Agostino, are personally aware of the 
problem. We both talk with the contractor about this issue and 
it is a very difficult issue. I think we are making headway. I 
think we will be seeing some changes in the way that the 
laboratory itself approaches the management of that portion of 
the work, which I think is a good thing.
    I would also mention that in the competition for this 
contract the contractor who won, the LANS organization, did in 
fact envision efficiencies, to be able to address going forward 
in a more efficient way. For example, we believe that at Los 
Alamos today, it costs us at least five times more per drum of 
transuranic waste to ship it to WIPP than it does anywhere else 
in the complex. So we do believe that we can attain 
efficiencies with the new kind of thinking that the contractor 
said they would bring to this issue.
    Looking forward to the second part of your question, we 
know that the milestones created by the recent agreement needed 
to have a new cost and schedule baseline. The laboratory worked 
up a new cost and schedule projection so that we would know how 
to fund it. However, despite two tries to get that estimate 
through an independent audit, it has not passed.
    So the challenge we have is until we really know what those 
efficiencies will bring and what this new cost and schedule can 
do, we do not know what the right amount of funds are to put on 
it. We know that we have been funding at $141 million per year. 
We know that we have been not missing milestones with that 
level of funding. I would tell you that we need to reassess 
that once we have an independent audit of the cost and schedule 
for the environmental work at Los Alamos.
    Senator Domenici. Well, look. I have done the charts and 
looked at them. You are going to miss the milestones, there is 
no question, by 2 years. And it is important to me that I know 
that you are working with Mr. Ron Curry. He is New Mexico's 
environmental man. It is my understanding that that 
relationship between the Environment Department and Los Alamos 
is not very good. Are you doing anything to improve it or do 
you know whether anything is happening out there that might 
improve it?
    Mr. Rispoli. Senator, I will tell you that I agree fully 
with you that the relationship has not been good. I think in 
fairness that the relationship between myself and Mr. Curry is 
strong and between his senior staff and us is strong. I think 
it is also noteworthy that the Federal Government changed its 
environmental manager. They have appointed Mr. George Rael of 
the NNSA to be the new leader of the environmental program for 
the Federal staff. And you probably heard the press release 
today that the laboratory itself will be placing a new manager 
in charge of the environmental program there.
    I do think that Mr. Curry and I are clearly in agreement 
that we want to have a good relationship and I do believe that 
these steps will get us where we want to be.
    Senator Domenici. Could you please explain to me and the 
committee who is responsible for paying these fines? Is it DOE, 
University of California, or LANS?
    Mr. Rispoli. My understanding, Senator, is that because, in 
the case of the Los Alamos operation, that not all of the fines 
are attributable to LANS. In other words, some of them are, but 
some of them were direct contracts from the Los Alamos site 
office with contractors to do the work. My understanding is 
that the fines will, at least most of them will be borne by the 
Federal Government.
    I am aware that in one case the contractor indicated they 
would take a fine, but I believe in most cases it would be the 
Federal Government.
    Senator Domenici. Do you have any idea, just looking at 
them out there, to tell the chairman how many thousands of 
dollars they are allegedly fining us in those five fines, four 
fines?
    Mr. Rispoli. Senator, I only have one with me. That one 
alone is $402,000 and it is a potential notice of violation. I 
can get you the answer for that for the record.
    Senator Domenici. Would you get us the answer for the 
record?
    Mr. Rispoli. Yes, sir.
    [The information follows:]
   Fines Assessed Against Doe and Los Alamos National Security (LANS)
    In the past eight months, the New Mexico Environment Department 
(NMED) has assessed penalties against the Department and/or Los Alamos 
National Security, LLC (LANS) for five alleged violations of the 
Consent Order or other hazardous waste regulations. As of March 22, 
2007, the five violations and the responsible parties are summarized 
below:

----------------------------------------------------------------------------------------------------------------
                                                                                               Actual Fine
             Description                         Date              NMED Proposed Fine      (Responsible Party)
----------------------------------------------------------------------------------------------------------------
Improper disposal of debris from       7/12/06................  $88,930................  $51,000 (DOE to
 Incinerator Ash Pile.                                                                    pay).\1\
Late Investigation Report submittal    9/12/06................  $30,000 plus $3,000/day  $120,000 (DOE to
 on Incinerator Ash Pile.                                        from Oct 12 until        pay).\1\
                                                                 project completion.
Failure to report new release          9/15/06................  $795,620...............  TBD (UC and/or LANS to
 associated with chromium groundwater                                                     pay--responsibility
 contamination.                                                                           under negotiation).\2\
Improper removal of hazardous waste    10/25/06...............  $402,600...............  TBD (UC to pay).\2\
 from Sigma Mesa D&D project.
Failure to comply with Work Plan       12/7/06................  $1,000/day for first 30  $30,000 paid to date,
 provisions for Material Disposal                                days (paid) plus         but continuing at
 Area-C characterization.                                        $3,000/day until new     $3,000/day (starting 1/
                                                                 report submitted.        5/07) until report is
                                                                                          submitted) (LANS to
                                                                                          pay).
----------------------------------------------------------------------------------------------------------------
\1\ The National Nuclear Security Administration agreed to pay these penalties.
\2\ DOE has directed the fines to the contractor, but negotiations are still pending regarding eligibility for
  reimbursement under the contracts.

    As a general rule, LANS, the current Management & Operating (M&O) 
contractor, has the responsibility (and University California (UC) 
before it) for performing environmental remediation at Los Alamos 
National Laboratory (LANL). However, to reduce costs, some years ago 
DOE decided to contract directly with companies outside the M&O 
contractor to perform several environmental remediation projects, 
including remediation work on the Incinerator Ash Pile in TA-73. In the 
two cases of penalties associated with the Airport Ash Pile, listed as 
items #1 and #2 above, DOE has acknowledged that it is responsible for 
paying the penalties and LANS was not responsible for any activities 
that led to the alleged violations.
    Under the current M&O Contract, LANS is responsible for paying for 
violations associated with environmental remediation work they are 
responsible for (see #5 above). The previous M&O contractor, the 
University of California, was likewise responsible under its M&O 
contract for fines and penalties. Some of the actions that led to the 
assessment of penalties occurred prior to the date that LANS took over 
the contract, June 1, 2006. As a result, UC may have responsibility for 
certain of the penalties and/or both UC and LANS may share in the 
liability (see #3 and #4 above). No final determinations have yet been 
made with respect to these penalties.

    Senator Domenici. I am finished. Thank you very much.
    Mr. Rispoli. Thank you, Senator.
    Senator Dorgan. Senator Craig.

                         CONTRACTOR PERFORMANCE

    Senator Craig. Jim, let us stay on the cleanup theme for a 
moment because it is important for all of us and our labs to 
try to stay on those schedules as much as we can. How do you 
rate the Idaho cleanup contractor's performance, let us say 
compared with other cleanup projects at DOE?
    Mr. Rispoli. I believe that the Idaho contractors are 
both--are doing very well. I think that they are performing at 
a level that we feel comfortable with. I am not suggesting that 
they are earning every penny of their fee because I do not 
honestly know to that level of detail. But I do know that when 
I look across the program that Idaho is performing very well 
for us.
    Senator Craig. It is my understanding that they have come 
in in most instances ahead of schedule and under budget with 
most of their cleanup effort. Is that not true?
    Mr. Rispoli. In most areas that is true. As you know, even 
in one facility, the Advanced Mixed Waste, we had to make up 
for a lot of lost time and were successful in doing that. But 
yes, Senator, I would agree.
    Senator Craig. Do you believe the best performers should be 
rewarded with additional funds to accelerate project schedules 
to achieve real cleanup results or would you expect good 
performers to do more with less because of their successes?
    Mr. Rispoli. I think the answer is a little bit of both. 
But I would offer to you that in many cases contracts provide 
incentives for contractors who can deliver more with less. In 
other words, we try to incentivize our contractors to do 
exactly that, that if they can perform work in a less than full 
funding situation they would then have opportunity to earn more 
fee.
    Senator Craig. Could you please provide me, and I think all 
of us would be interested in, a copy of the remaining fiscal 
year 2007 EM budget when finalized and an explanation as to any 
impacts it would have on these projects? Of course, I am 
interested in the Idaho cleanup.
    Mr. Rispoli. You mean for the continuing resolutions?
    Senator Craig. That is correct.
    Mr. Rispoli. Yes, Senator. That is--right now the 
continuing resolution is with OMB. It is in the final stages of 
being prepared to be brought to the Congress. But I would be 
happy to do that in a separate meeting with you.
    Senator Craig. Rumors abound and we would like to put those 
away.
    Mr. Rispoli. Yes, sir.

              PROPOSED LEGISLATION FOR NUCLEAR WASTE FUND

    Senator Craig. Ward, again thank you for being before the 
committee and the working relationship we have with you. How 
confident are you in your ability to complete the Yucca 
Mountain license application by June 2008? You have discussed 
that some.
    Mr. Sproat. Senator, assuming that we receive the full 
amount that the President requested for fiscal year 2008, which 
is $494.5 million, I am 100 percent confident we will meet that 
date.
    Senator Craig. Does this require the Fix Yucca legislation 
you proposed, that was proposed by DOE yesterday?
    Mr. Sproat. No, Senator, it does not. In other words, the 
Fix Yucca legislation--and I am prepared to talk about any 
parts of that you would like--is not a prerequisite to the 
submittal of the license application. Parts of it are a 
prerequisite before the NRC would be able to grant us a 
construction authorization, primarily land withdrawal.
    Senator Craig. What is your opinion of the Domenici-Craig 
Nu Way bill from the last Congress? Does the certainty of 
interim storage of defense waste at Yucca hurt or help this 
project?
    Mr. Sproat. I believe it would help this project because, 
No. 1, I believe it would give us legislative clarity, if you 
will, regarding the Department's authority to do interim 
storage of high level waste and naval spent nuclear fuel, which 
right now we believe--and it has been looked at by a number of 
people over a number of years. We currently believe we do not 
have that legislative authority to do that. So that certainly 
would give us that authority and capability and would allow us 
to move forward with, probably on an expedited basis, on 
figuring out how to make that happen.
    Senator Craig. Thank you. Thank you both.
    Mr. Chairman.
    Senator Dorgan. Senator Craig, thank you very much.
    Senator Bennett.

                      ATLAS MILL SITE CLOSURE DATE

    Senator Bennett. Thank you, Mr. Chairman.
    Mr. Secretary, you probably will not be surprised that I 
want to talk about the Atlas Mill site. By nodding, I guess you 
are prepared to----
    Mr. Rispoli. Yes, sir, I am.
    Senator Bennett [continuing]. To talk about that.
    We know that the first recommendation--or first comment 
perhaps is a better term--that came out of the Department as to 
when this would be done was it would take about 7 to 10 years, 
and that would put it 2017, 10 years from today.
    Secretary Bodman before the Energy and Commerce Committee 
on the House side said it will occur around 2028. So he has 
added another 10 years to the 10 years that was the outside 
date we had, and I am not sure whether he is anticipating that 
that would take place in 1 year or if it would start in 2028 
and then take another 7 to 10 years.
    I am sure it comes as no surprise that Secretary Bodman's 
testimony set off a lot of alarm bells down in that part of my 
State. I would like to have you talk to us about that and tell 
us what you think is really going to happen, how much it is 
going to cost, and therefore help me understand what my 
responsibilities on this subcommittee ought to be to try to see 
to it that we get as close to the original projected date as we 
possibly can.
    Mr. Rispoli. Thank you, Senator Bennett. We are in the 
process now of evaluating proposals that we have in hand from 
the contractor community to do that. We expect to have an award 
this summer. The process that we would have in the Department, 
the 2028 is a good planning figure. That is the planning figure 
that we use, but it is exactly that. It is a planning figure, 
because the process that we would have will require the 
contractor to propose what technology, what efficiencies, and 
so forth they would employ.
    We are assuming there will be one trainload per day, one 
trainload per day that would be hauling that material out to 
Crescent Junction. We are assuming a certain type of conveyor 
system to load the train cars, for example. But until we 
evaluate the proposals and develop a cost and schedule that can 
be independently audited, the 2028 number, while a good number 
and the best we have, is a planning number. It could be 
significantly better than that depending upon the contract 
mechanism chosen.
    Of course, the other factor then is the annual funding. 
This year we are looking in the 2008 budget about $23 million 
is in the budget for the funding. I think until we evaluate the 
proposal and look at what is the proper baseline, I think that 
we are at that early stage where we just do not know. As soon 
as we finish that evaluation, we will have a much better handle 
on what would a reasonable schedule and baseline be.
    The 2028 is a good number, as I say, but we still have 
quite a ways to go in the evaluation process.
    Senator Bennett. Let me say back to you what I think I 
heard so you can tell me whether I am right or not. By midyear 
this year, you will have an understanding of which contractor 
you want and how that contractor will go about it?
    Mr. Rispoli. Yes, sir.
    Senator Bennett. And at that point, presumably you will 
know how soon the contractor can begin?
    Mr. Rispoli. At that point we would be ready to send in an 
independent review team to review the contractor's numbers, to 
say yes, this is a valid cost and schedule. So that will 
actually begin happening this summer, and typically the process 
is just a few months after that when we would know whether it 
is a valid cost and schedule.
    Senator Bennett. So let us go through it. Let us just put 
some dates on it. Let us say you know by July. You pick the 
contractor. Let us give you 90 days, August, September, and 
October, so you will know by November whether the contractor is 
good or not. Assuming that he or she is, you will know in 
November what the time schedule will be?
    Mr. Rispoli. I think that is a reasonable time line, yes, 
sir.
    Senator Bennett. So let us say that the first shipments can 
then start, what, 5 years from November? Will it take them that 
long to put the conveyor belt in or whatever, or 5 months? Or 
do you have any sense of the timing?
    Mr. Rispoli. No, sir, I do not know that yet, because I do 
not know what technologies or what approaches those who are 
bidding will actually propose to us. So I cannot say when they 
would have the system in place to begin loading the rail cars 
and moving the material away from there to Crescent Junction.
    Senator Bennett. Well, let us assume for just a minute that 
the contractor physically could do it in a year, within a year 
after November, so that it could start moving as early as 
November of 2008.
    Mr. Rispoli. I think that is a reasonable--at this point in 
time, I think that is a reasonable assumption. I would offer to 
you that actually once we have the proposals evaluated it would 
be very appropriate at that time for me to visit with you and 
give you more detail, once that is available information.
    Senator Bennett. Okay. But what I want to nail down and be 
absolutely sure, Secretary Bodman's use of the term ``2028'' 
did not signal a determination on the part of the Department to 
put this off an extra 10 years?
    Mr. Rispoli. I think the Secretary was referring to the 
best number we have today, which is a 2028 number based upon an 
assumption of costs and assumption of annual funding profile. I 
think that once we see what the approach is and what the actual 
cost is likely to be, we can evaluate that and see how good or 
how not good the 2028 number is. But we just do not have a 
better number today.
    Senator Bennett. I understand that. But again, what I hear 
you telling me is that the Department's use of the 2028 as a 
planning date is not a signal that they have decided to slow 
this down or delay it?
    Mr. Rispoli. I would not take it to be that, no, sir. I 
would agree with you. That is true.
    Senator Bennett. Because that is the signal that got sent 
in the press, that they were thinking, gee, this could be done 
by 2018. On the timetable we have talked about, 2018 is logical 
if they start in November of 2007. It takes them a year to get 
the thing in place, 2008, and it takes them 10 years to get it 
done, it is 2018. So 2028, that is the outside year that you 
think it could happen if the Congress does not fund it properly 
or if the contractor runs into unforeseen difficulties. But for 
planning purposes, you say this will be done by 2028, but that 
is not the statement we are going to delay it to 2028?
    Mr. Rispoli. That is true because, as I mentioned earlier, 
we know we are going to move it by train. We know that our 
planning today is one train per day. That may or may not be 
optimal. It may be the best that can be done, depending upon 
the physical parameters, traffic and things like that.
    Senator Bennett. When you brief me later this year, we can 
go into all of those. But the point I wanted to make and that 
you now have confirmed is that Secretary Bodman's testimony was 
not a statement that the Department wants to delay this 
project.
    Mr. Rispoli. I do not think that we took it as a delay. 
Again, it was just a planning number that we had, and that is 
the number we gave to the Secretary to use based upon what we 
know today, which is not very much.
    Senator Bennett. Thank you.
    Senator Dorgan. Thank you.
    Senator Allard.

          LESSONS LEARNED APPLICATIONS TO OTHER CLEANUP SITES

    Senator Allard. Thank you, Mr. Chairman. I apologize for 
being late. I apologize for not hearing the testimony because 
you did talk about Rocky Flats, which I think is a success 
story that we do not talk enough about.
    Mr. Chairman, when I first got involved with Rocky Flats 
having been elected to the U.S. Senate, it was a cleanup 
project laid out over 70 years, $35 billion in costs. We were 
able to put together an accelerated program of cleanup, bring 
it down to 10 years, and we were able to finish that project 1 
year ahead of the redone schedule with savings of hundreds of 
millions of dollars. I think one of the key aspects of good 
cleanup were the incentives that we built into the contract 
which really kept things moving.
    We had very cooperative employees with the Department of 
Energy working out there and citzens in the area, who made it 
their goal to get the cleanup done. The agency had bought into 
it. But I do think that there are a lot of lessons to be 
learned by this.
    Are we going to apply some of the lessons learned in this 
cleanup to other sites? Because this is the largest cleanup I 
think in the world, frankly, where we have had a success story 
like this, where we have been under budget and ahead of 
schedule. I would like to know if there are lessons learned 
here that can be applied to other projects where we might have 
nuclear cleanup.
    Mr. Rispoli. Senator Allard, absolutely. And I believe that 
we actually touched on this at the ceremony itself out in 
Colorado last year. We are addressing lessons learned from 
Rocky Flats in a couple of ways. I will mention two of them.
    The first is that we have established a lessons learned 
section of our internal house web site, you might say. So that 
not only for the Rocky Flats situation, but many others as 
well, we can better share lessons learned. We are so spread out 
geographically that we realize that oftentimes different 
organizations are facing similar challenges, and so use the 
electronic media as best we can to get that out.
    The other is that at the Rocky Flats cleanup not only the 
prime contractor, but even a number of the subs had people with 
a lot of experience. As that job closed down, they have 
actually sent those people to other places to help with similar 
situations in other places.

                           PREPARED STATEMENT

    But I believe that you are absolutely right. We had some 
tremendous success there. I would likewise say we gave in our 
opening a few photos of places that are not as big, but 
certainly just as significant, such as the Fernald site in 
Ohio, where we again had similar successes in lessons learned, 
and we are working to promulgate those.
    Senator Allard. While I think about it, Mr. Chairman, I 
would like to make my full statement a part of the record if I 
might.
    Senator Dorgan. Without objection.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Thank you, Chairman Dorgan, for holding this hearing today. I am 
proud of the work that Senator Domenici accomplished last year and I 
look forward to working with you as the new Chairman, as well as the 
other members of this committee. I would also like to thank the panel 
for coming today and offering their testimony.
    This is my third year on this subcommittee, and I like to take 
advantage of all the opportunities to hear from the Department of 
Energy's EM Assistant Secretary about Rocky Flats. I think it is 
important for many reasons to talk about this success story, because if 
you were to visit the site today, you would see what Rocky Flats looked 
like more than 50 years ago. It is pristine and quiet with little to 
remind you that it once was the place of the most dangerous building in 
the United States.
    I remember the time-frame when the Department of Energy, then the 
Atomic Energy Commission, established Rocky Flats as a nuclear weapons 
production facility. I remember the decades of production and the many 
workers who toiled to protect our country--24 hours a day, 7 days a 
week.
    The first time I toured Rocky Flats--with the site's extensive 
security controls, enormous concrete buildings, and tons of weapons-
grade plutonium still on site--it was unimaginable what it would look 
like today. I remember the worries of security threats, wide-spread 
contamination, industrial pollution, and radioactive fall-out. And, 
most importantly, I remember the early estimates for cleaning-up Rocky 
Flats--70 years and $35 billion.
    So, Mr. Chairman, I thought I would again touch on this success 
because we are fortunate to have come so far and to have achieved so 
much. The picturesque Rocky Flats that exists today seemed like a dream 
just 10 years ago. Few believed the site could be successfully cleaned-
up. Even fewer believed that the clean-up could be completed early--15 
months ahead of the already accelerated schedule and hundreds of 
millions of dollars below budget. We in Congress, and the Department of 
Energy, need to celebrate this success and hopefully channel it into 
other clean-ups around our country.
    Again, thank you Mr. Chairman for bringing us here today, and I 
look forward to the testimony of the witnesses.

                        CLEANUP FUNDING STRATEGY

    Senator Allard. The other idea when we were working on 
this--I was on the authorizing side in the Armed Services 
Committee and this was under my jurisdiction at the time. Part 
of the thinking was that once we get Rocky Flats clean then 
that begins to free up dollars for cleaning up other sites. Is 
that happening, and we are getting expedited cleanup in some of 
these other sites?
    Mr. Rispoli. I think that right now we are looking at over 
the next, in 2006, 2007, 2008, 2009, at a number of sites--it 
is in my statement for the record; it is also in the budget--
that are being cleaned up. I believe what we are looking at 
after that are essentially the really big sites that we will be 
at for a long time, driven more by schedules and technology 
problems, such as Hanford, Savannah River, Oak Ridge.
    In fact, at Oak Ridge we will even be adding more. I 
reviewed a proposal just yesterday that will add even more 
square footage to the program for D&D such as we did at Rocky 
Flats.
    Senator Allard. Well, I hope that you continue to push 
cleanup on those other sites, because they were also 
cooperative in this effort. There was an extra amount of 
dollars that went to the cleanup of Rocky Flats to speed up 
cleanup, so we could point to a success story. The idea was 
that once we got it cleaned up it would free out other dollars 
so that they could proceed at a more rapid pace in getting 
their cleanup problems handled. So I hope that you keep that in 
mind when you are putting together your budgets and working 
with those other areas.

                   GLOBAL NUCLEAR ENERGY PARTNERSHIP

    Can you give us an update on where the Department is on the 
Global Nuclear Energy Plan proposed by the administration 
several years ago?
    Mr. Rispoli. Unfortunately, Senator, I cannot. I am not----
    Senator Allard. Can you, Mr. Sproat?
    Mr. Sproat. Just so I am clear, Senator, are you talking 
about the Global Nuclear Energy Partnership?
    Senator Allard. Yes, I am.
    Mr. Sproat. That is not under my area of responsibility and 
I would prefer that if you would like an update on that, let me 
take that question for the record and ask Assistant Secretary 
Spurgeon to come back and brief you on that. That is under his 
area of responsibility.
    Senator Allard. This is where we have the MOX and all that 
and it is now a MOX Plus facility.
    Mr. Sproat. Yes, sir.
    Senator Allard. All right. If you could respond to the 
record, I would appreciate it.
    [The information follows:]
                     Advanced Fuel Cycle Initiative
    The Global Nuclear Energy Partnership (GNEP) is funded under the 
Advanced Fuel Cycle Initiative (AFCI) within the Office of Nuclear 
Energy. AFCI activities are currently focused on developing a detailed 
roadmap for implementing the GNEP initiative, including supplying 
information to support a Secretarial decision on the path forward for 
GNEP. The Secretarial decision on the path forward for GNEP, and 
subject to compliance with all applicable law and regulation, longer-
term, AFCI activities are anticipated to include supporting supply 
arrangements among nations to provide reliable fuel services worldwide 
for generating nuclear energy. There has already been considerable 
progress internationally to encourage such arrangements.
    The GNEP Statement of Principles has been endorsed by Japan and 
France and is currently being considered by Russia, China, and the 
United Kingdom. A U.S.-Russian Action Plan was submitted to President 
Bush and President Putin in December 2006. Similar action plans are 
being prepared for Japan and France. Domestically, the Department has 
sought input from the private sector to assist the Department in 
developing an appropriate business model for the proposed nuclear fuel 
recycling center and advanced recycling reactor components of GNEP, 
including potential scope, cost, schedule, and technical risk.
    DOE is also working with the Nuclear Regulatory Commission (NRC) to 
provide information regarding potential commercial separations plants 
and advanced reactor concepts. DOE is working to develop a Memorandum 
of Understanding on interactions with the NRC for GNEP similar to that 
which is in place regarding the Next Generation Nuclear Plant.

    Mr. Rispoli. I would point out that the MOX facility in 
particular at the Savannah River site is an NNSA project, and I 
think that all of it is kind of held together and has to be 
dealt with in the context of the nuclear future for the Nation. 
But the MOX project in particular, if you have a question on 
it, that would be appropriate for the NNSA.
    Senator Allard. Okay, I appreciate it. And it all has to 
happen together.
    Mr. Rispoli. I think they are all interconnected, yes, sir.
    Senator Allard. Yes. And I think that we need to look at 
reprocessing our nuclear rods. We have got technology now where 
we can, with the reprocessed rod we bring the waste stream down 
to 5 percent. It is highly toxic, but we bring it down to 5 
percent, which I think helps take care of some of our storage 
issues. And with the new technology it is much more difficult 
to convert to a nuclear weapon, I understand. So I think that 
it would help quell some of the opposition that we have had in 
the past when we looked at reprocessing rods.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Allard, thank you very much.
    We are coming up on some very big decisions in these areas, 
the MOX facilities, Global Nuclear Energy Partnership (GNEP) 
and Reliable Replacement Warhead program (RRW), many of which 
are related and have significant consequences. We likely will 
be holding some hearings in this subcommittee on those very 
issues. I have not set a date, but I expect to do that.
    Let me just say that I went to graduate school in Colorado, 
knew of and saw Rocky Flats at the time, and about 2 weeks ago 
flew over Rocky Flats on a commercial airline going from Denver 
to North Dakota. It is quite remarkable to look down and see 
what has been done at that site. I was duly impressed, and I 
appreciate your raising that issue. That is, I think, an 
example of great success.

                     MISSED MILESTONES CONSEQUENCES

    Mr. Rispoli, you heard the comment that I and my colleague 
Senator Domenici offered about the 23 percent reduction over 4 
years in funding. I respect that you are here to represent the 
President's request to Congress and you would not be a very 
diligent subordinate if you did not fully support that. But 
clearly there are consequences to that, and can you tell me the 
milestones that will be missed? You talked about meeting 90 
percent of the milestones. What about the milestones that are 
missed, and is the budget request simply a reflection that 
these are lesser priorities than the other issues?
    Mr. Rispoli. Mr. Chairman, if I may address it this way, 
everywhere that we operate we have milestones that are 
established by some sort of an agreement, whether it be a tri-
party agreement with the EPA and the State or a consent order 
with the State or some other agreement. We have milestones. And 
intrinsic, built into all of those agreements generally is a 
provision to renegotiate milestones as you face technical 
difficulties and the State recognizes that you have made every 
effort to comply.
    So a normal process is in fact that we need to recognize 
that and address milestones that for one reason or another 
cannot be met.
    Senator Dorgan. Yes, but this is not about technical 
difficulties. I am talking about funding.
    Mr. Rispoli. Yes, I understand.
    Senator Domenici. And with so much cleanup work yet to be 
done and your description to Senator Allard of the big projects 
yet to be started, how does one justify reducing funding for 
these things? How do you justify it?
    Mr. Rispoli. I understand the question, yes, Senator. What 
we did was--and this may not be on the mark to answer your 
question. What we did was we recognized all the milestones and 
within those milestones we applied a risk-based approach to 
where do we get the greatest risk reduction for the funds that 
you appropriate and give us to operate our program.
    In so doing, there were some milestones that we believe 
related to low-risk activities, generally but not always, 
generally D&D of a building, for example, or D&D of a number of 
buildings. And those came to the bottom of the list. So when it 
was time to make budget decisions, we tried to focus the 
resources where the greatest risk reduction would be and leave 
for the lower end some of the D&D and other related types of 
activities.
    And you are correct that the budget could not cover all of 
those, but that is the rationale that we used.
    Senator Dorgan. But that is still not quite responsive. You 
are talking about how you focused. I am asking the question of 
why, given the body of work in front of us--which, and I am new 
to this, but it appears to me to be very substantial--why on 
earth would we be talking about a 23 percent reduction in 
funding over 4 years?
    Mr. Rispoli. Yes, sir, it is a significant difference when 
you look across the years. I would point out that the annual 
cost for funding, for example, Rocky Flats, Fernald, all these 
other closure sites, was about $1 billion a year and those 
sites did complete. So when you look at the difference between 
a year or 2 ago and today, we would certainly recognize that $1 
billion worth of annual requirement basically was completed, 
and so we had to redirect our resources and attention to other 
places.
    Senator Dorgan. But would you agree it is counterintuitive, 
given the amount of work and given the fact that we will miss 
milestones, not for technical reasons but because we are 
suggesting this is not a high enough priority to even maintain 
level funding, to be talking about budget cuts in this area?
    Mr. Rispoli. I understand your question, Senator, and I am 
not disagreeing with your point at all. But I would also point 
out that at the time those milestones were set up it assumed 
technologies that did not exist or in some cases, like at 
Hanford, we have had to use two or even three technologies 
instead of one. We assumed that certain regulatory things would 
be in place. They were not in place. There were extra 
quantities of things that had to be done that resulted in 
consuming more resources to get the work done.
    So there are many, many factors to this that led to a 
funding profile that got us to where we are today.
    Senator Dorgan. Is the reduction in funding in recent years 
a component of what has led to the estimated increase in the 
life cycle costs of the program?
    Mr. Rispoli. Any life cycle cost is a balance--I believe 
again you are correct--it is a balance between the amount that 
you can provide to that project on its funding curve and the 
life and the duration of the project. Certainly, in general if 
you have a shorter duration you would have a lower cost.
    Senator Dorgan. Do not misunderstand the intent of my 
questions. Because we have got competing interests for funding 
in this subcommittee, with some very big projects and some very 
important ones, I am trying to understand the circumstances 
that have led to certain requests, in this case a request for a 
budget cut in an area that seems to me to be in significant 
need of perhaps, at minimum, level funding, given the workload 
in front of us.
    Well, you have done the best you can to avoid directly 
answering my questions. But I think if I can find an 
interpreter I will understand what you have said. Again, I am 
not making fun of you. I understand your role here. Your role 
here is to support the President's budget. Ours is to try to 
evaluate with limited resources and nearly unlimited needs and 
wants, how to allocate and economize.
    So I appreciate you being here. And I did start in a very 
positive way, talking about Rocky Flats.
    Mr. Rispoli. Yes, sir. Thank you.
    Senator Dorgan. When we get these projects completed and 
you look at it, it is almost breathtaking to see because you 
would not believe it could be done until you have seen it after 
the fact. And I appreciate that.
    Mister--is it ``SPROUT'' or ``SPROAT?''
    Mr. Sproat. ``SPROAT.''

                    YUCCA MOUNTAIN UPDATED BASELINE

    Senator Dorgan. Mr. Sproat, does the Department of Energy 
plan to update these 6-year-old cost estimates for the project 
before it submits the license application?
    Mr. Sproat. Yes, Senator, we do. As a matter of fact, when 
we set the new best achievable milestones schedule for the 
repository last summer, basically at that point in time we were 
rebaselining the project, saying--taking a look at how long it 
would take to build the repository, the railroads, the 
transportation infrastructure. That required us to go back and 
take a look at what our budget authority request annual 
requirements should be between now through repository 
construction.
    We did that. We had it reviewed by an independent outside 
engineering construction firm. We incorporated their comments. 
That work has been completed. I just got released from the 
Office of Management and Budget this week to release those 
figures. Right now what we are doing is packaging those figures 
in a way that when people read it they can make sense out of 
it, and I suspect we will be able to send that revised budget 
authority request case flow up here to the Hill within the next 
2 weeks.

  YUCCA MOUNTAIN REDUCTION IN FISCAL YEAR 2008 TRANSPORTATION REQUEST

    Senator Dorgan. The fiscal year 2007 budget request for the 
program sought $67.7 million for transportation. In 2008 you 
are requesting $15 million for transportation. Can you describe 
to me what that precipitates, what does that mean?
    Mr. Sproat. The basic reason that reduction was made is 
because we do not need the money in fiscal year 2008.
    Senator Dorgan. Okay, so it is a timing issue.
    Mr. Sproat. That is exactly right. The primary reason is 
that in early--in 2006, we were prepared to make a record of 
decision of selecting what is called the Caliente route, the 
Nevada Rail Line route through Nevada to the repository. At 
that point in time, though, the Walker River Payute Tribe, who 
owns the land, came to us and said: We would like you to 
evaluate an alternative route through our reservation. They had 
previously not been willing to do that.
    As a result, and taking a look at that potential route, we 
see a significant opportunity for both schedule and dollar 
savings. So we are currently doing an environmental impact 
review of that route. As a result, that is pushing off the 
record of decision for the Nevada Rail Line for about a year.
    So we are putting a lot of money into transportation this 
year through the environmental impact statement work, but the 
record of decision to decide which rail line we are going to go 
with is not going to be made until probably about a year plus 
from now, and therefore we do not need as much money in 
transportation as we did in 2007.
    Senator Dorgan. A quick question. Does the DOE have the 
authority to commence construction of a rail spur to Yucca 
Mountain in the absence of the NRC construction authorization 
for the repository?
    Mr. Sproat. We believe we do. However, we have requested 
clarification of that authority in our legislation that we sent 
up here to the Hill yesterday. We do believe we have that 
authority, but we suspect that without clear legislative 
direction we will probably end up in some legal lawsuits and 
litigation regarding that. So that is why we are including that 
in our legislation.
    Senator Dorgan. Your program will not be a stranger to 
legal action, will it?
    Mr. Sproat. No, sir, it will not.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Dorgan. Let me thank both of you very much for 
being here and for being involved in these programs. Both are 
important programs.
    Do my colleagues have any additional questions?
    If not, we will be sending some additional questions to you 
and ask for your response.
    We will leave the record open until this Friday, March 9, 
at 5 o'clock, so the questions can be submitted.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. James A. Rispoli
             Questions Submitted by Senator Byron L. Dorgan
                      los alamos missed milestones
    Question. Mr. Rispoli, the Department has proposed $140 million for 
Los Alamos cleanup, which is insufficient to the cleanup milestones 
contained within the Consent Order the Department, has entered into 
with the State in 2005. According to the June 15, 2006 baseline for the 
project, which assumes completion of all the Consent Order Milestones, 
the budget for Los Alamos should be $283 million more than double the 
request. If the Department remains on the current path proposed as part 
of the fiscal year 2007 and fiscal year 2008 budgets, cleanup 
milestones will be missed and the cleanup will be delayed by 2 years 
beyond the Consent Order deadline of 2015. Mr. Rispoli, I am not sure I 
understand how you can justify a budget that forces the Department to 
miss agreed upon milestones and will result in fines and other 
penalties from the State. Please clarify.
    Answer. The President's request for fiscal year 2008 for LANL is an 
appropriate amount and is based on the Consent Order requirements in 
the budget year and the site contractor's performance since assuming 
responsibility for cleanup in mid-fiscal year 2006. The contractor 
continues to develop the legacy cleanup program baseline, and when 
complete later this year we anticipate that a new baseline will be 
validated. We anticipate that this will be accomplished in time to 
inform the fiscal year 2009 budget process.
    The budget level that your question refers to for Consent Order 
compliance ($283 million) is consistent with an amount that the Los 
Alamos site contractor has identified as part of a proposed revision to 
the legacy cleanup program cost and schedule baseline which it 
submitted to the Los Alamos Site Office. This revised amount addresses 
all aspects of cleanup scope at the site (soil and water remediation, 
legacy transuranic waste disposition, and decontamination and 
decommissioning), not only the environmental restoration activities 
that are subject to the requirements of the Consent Order. This 
revision has undergone an external independent review by the 
Department's Office of Engineering and Construction Management that 
revealed a number of deficiencies that require corrective actions.
    Question. Mr. Rispoli, can you tell me how you intend to keep 
cleanup on schedule with the budget baseline you have offered in the 
2008 budget?
    Answer. The Los Alamos site contractor has developed and submitted 
to the Los Alamos Site Office a proposed revision to the legacy cleanup 
program cost and schedule baseline. This revision has undergone an 
external independent review by the Department's Office of Engineering 
and Construction Management that revealed a number of deficiencies that 
require corrective actions. That process is continuing, and when 
complete later this year we anticipate that a new cost and schedule 
baseline will be validated. We anticipate that this will be 
accomplished in time to inform the fiscal year 2009 budget process.
                  renegotiating the lanl consent order
    Question. Last week, I spoke with Secretary Bodman about the 
challenges facing the Los Alamos National Lab in complying with the 
various cleanup milestones. It was his belief that he needed to take 
action to find a workable cleanup strategy within the existing budget 
constraints. I believe it is important for the Department to implement 
a cleanup strategy that is sustainable within the existing budget 
constraints.
    I expect the State to push back in a very public fashion and I 
understand their frustration, but no matter how many fines or penalties 
the State levies it will not do anything to cleanup the sites. We need 
a partnership between the State and the Department to negotiate 
realistic cleanup goals. Can you tell me what your plan is to 
prioritize cleanup at LANL and work with the State on a path forward?
    Answer. The Department is committed to the cleanup of the Los 
Alamos National Laboratory. Our priorities at the site are to reduce 
risks, to improve our performance such that we can meet the 
requirements of the Consent Order, and to accomplish these goals 
efficiently. To meet these priorities, we have to make some changes. 
These changes have started already, and include personnel changes on 
the environmental side at the contractor level. We have also made a 
significant management change at the Los Alamos Site Office with the 
reassignment of Dan Glenn, previously the Pantex Site manager, to Los 
Alamos. He brings a fresh perspective to assessing and addressing the 
problems at Los Alamos. He also brings his experience in developing and 
implementing ideas leading to the successful resolution of complex 
issues at the Pantex site in Texas that should improve performance at 
Los Alamos. We anticipate that this kind of fresh start at both the 
contractor and Government management levels will foster improved 
relations with the State.
    We are in the midst of the validation process for a new, 
comprehensive and integrated baseline for the complete scope of the Los 
Alamos legacy waste cleanup. When this baseline is in place, we expect 
to see improved activity planning and efficient execution of the 
cleanup work at the site.
    Question. Based on your current budget request, will this result in 
delaying the cleanup beyond the existing 2015 deadline?
    Answer. We recognize that without efficiencies in work performance 
at the site and an executable comprehensive cost and schedule baseline 
for the work, we will have difficulty in meeting the overall cleanup 
date of 2015 in the consent order. When the Department completes its 
review of the new proposed cleanup baseline for Los Alamos and is able 
to validate it later this year, we will assess whether the completion 
date for overall cleanup of the site as contained in the consent order 
is still achievable.
                                 fines
    Question. Mr. Rispoli, it is my understanding that there is some 
sort of provision in the consent order that says if the Department does 
not provide adequate clean up funding the Lab cannot be held 
responsible. Is that true?
    Answer. Section III.K.3 of the consent order states that no 
provision of the consent order shall require the Government to obligate 
or pay funds in contravention of the Anti-Deficiency Act, and that 
payment or obligation of funds by the Government for activities 
required by the Order shall be subject to the availability of 
appropriated funds. Based on this provision, the site cleanup 
contractor would not be responsible for non-performance if sufficient 
funds were not appropriated.
         los alamos national laboratory (lanl) safety concerns
    Question. Mr. Rispoli, it is my understanding that the relationship 
between the New Mexico Environment Department and Los Alamos is not 
very good. I understand that LANL had safety concerns with the drilling 
operation, what were those concerns and do you believe they were 
justified?
    Answer. The hazards involved in drilling four boreholes between two 
pits at Material Disposal Area C were a major concern for the 
Department. The borehole drilling was potentially dangerous because it 
risked penetrating the radionuclide inventory and compressed toxic 
gases at the landfill. Material Disposal Area C is a 1960s vintage 
disposal area and, as is the case with many of these old landfill 
sites, the actual distance between the pits cannot be determined 
reliably from the design drawings from that era. Similarly, the 
integrity of the soil ridges between the waste pits is difficult to 
determine after so many years since placement of the wastes.
    Therefore, the contractor had to rely on geophysics data to 
determine the safe drilling locations for the boreholes. Upon review of 
the geophysics data by all parties, Los Alamos Nuclear Services, NNSA, 
and the New Mexico Environment Department, resolution was reached that 
placement of four boreholes between waste pits in one location of 
Materials Disposal Area C could be accomplished after taking worker and 
environmental risks into account. The drilling was done using a geo-
probe to confirm the existence of the boundary between waste pits 
without entering the waste pits. Safety procedures required that the 
geo-probe insertion and subsequent drilling be done by workers in level 
B protection consisting of breathing air and chemical protection suits. 
The use of level B protection also involves physical risk to the worker 
during the drilling activities as their vision and movement is 
restricted by their trailing breathing air hose apparatus. To mitigate 
this additional hazard, mockups were conducted of all activities with 
the protective clothing to ensure that the work could be conducted 
safely and that the field procedure could be implemented as written. 
These precautions and appropriate work planning enabled the drilling to 
be completed without incident.
    The Department requires that all work be done safely at every site. 
Given the nature of the hazards involved, I believe the concerns were 
justified and the contractor took the appropriate safety measures to 
implement the requirements set forth in the consent order.
                           technical area-21
    Question. Mr. Rispoli, in fiscal year 2007 the Department requested 
$18 million in funding to initiate decommissioning of TA-21--a former 
plutonium facility--in order to characterize the extent of the 
contamination beneath this facility. However, the fiscal year 2008 
request does not provide any funding to support this cleanup which has 
a cleanup deadline of 2013. Every year this project goes without 
funding is another year delay in the consent order. Mr. Rispoli, your 
fiscal year 2007 budget requested $18 million for TA-21 cleanup, since 
Congress didn't spell out how the funds are to be used, can you tell me 
if you intend to use the funds to begin the D&D work?
    Answer. As part of the prioritization process that is associated 
with the development of the Environmental Management budget, my office 
examines the requirements to ensure safety, to provide essential 
services, and to undertake environmental compliance and risk reduction 
activities throughout the DOE complex. Typically, decontamination and 
decommissioning activities are not associated with high priority risk 
reduction requirements. The work at Technical Area 21 at Los Alamos 
falls into this latter category. In addition, Los Alamos does not have 
an approved cost and schedule baseline for the work. Once the cost and 
schedule estimates are independently verified, we will have a higher 
confidence level. We anticipate that this independent verification will 
be accomplished in time to inform the fiscal year 2009 budget process. 
At that time, the Department will review activities for Los Alamos 
National Laboratory cleanup including the decontamination and 
decommissioning work scope.
    Question. Without any funding requested in your fiscal year 2008 
budget how do you intend to recover from this delay and meet the 2013 
consent order milestone for this project?
    Answer. As part of the prioritization process that is associated 
with the development of the Environmental Management budget, my office 
examines the requirements to ensure safety, to provide essential 
services, and to undertake environmental compliance and risk reduction 
activities from across the DOE complex. Typically, decontamination and 
decommissioning activities are not associated with high priority risk 
reduction requirements. The decontamination and decommissioning work at 
Technical Area 21 does not yet have an approved cost and schedule 
baseline. An appropriate confidence level in the scope, cost, and 
schedule profiles for these work activities is needed before we 
proceed. This confidence would be indicated by the validation of the 
baseline that is expected later this year, in time to inform the fiscal 
year 2009 and out-year budget process. At that time the Department will 
review activities for Los Alamos National Laboratory cleanup and 
whether the completion data for overall cleanup of the site as 
contained in the Consent Order is still achievable.
                     los alamos national laboratory
    Question. Mr. Rispoli, the lab has been working hard to accelerate 
the disposal of high priority drums of TRU waste at WIPP. 
Unfortunately, this involves sorting through more than 12,000 drums of 
waste and then verifying their contents. This has been slowed by the 
NNSA Site Office's unwillingness to accept responsibility for the 
accelerated cleanup plan. It is my understanding that the Defense 
Nuclear Facility Safety Board supports the accelerated approach, but 
the NNSA Site Office has not yet signed off on this new plan.
    Do you favor the accelerated approach proposed by the contractor 
and do you believe it will result in the acceleration of shipments to 
WIPP?
    Answer. The Administrator of the NNSA has directed his Headquarters 
Chief of Nuclear Safety to work with the NNSA site office and the 
contractor to identify and implement an acceptable plan to dispose of 
the high priority drums presently stored above ground in fabric 
structures. This approach is focused on accelerating the safety 
documentation as well as the necessary upgrades to nuclear facilities 
required to characterize and package high priority drums for disposal 
at the Waste Isolation Pilot Plant (WIPP). In addition, the NNSA team 
is poised to evaluate and approve innovative approaches in the work 
plan that meet the intent of federal requirements and DOE Orders to 
ensure that the project is achievable. The project is now on an 
aggressive schedule with the goal of initiating shipments of high 
priority waste later this year and completing by January 2008. These 
shipments are among the Department's top priorities for waste shipments 
destined for disposal at the WIPP.
                   acceleration of tru waste to wipp
    Question. What can your office do to help the LANL site office 
become more comfortable with this strategy?
    Answer. The Office of Environmental Management and the National 
Nuclear Security Administration (NNSA) are collaborating in various 
aspects of the project to ship the high priority drums of above-grade 
stored legacy transuranic waste to the Waste Isolation Pilot Plant. In 
addition, the Waste Isolation Pilot Project office will support the 
shipping schedule that will be identified under this project. I have 
directed my staff to be mindful of your concerns regarding the LANL 
site office in their continuing regular interactions with NNSA.
                             sandia cleanup
    Question. Mr. Rispoli, your fiscal year 2008 budget does not 
provide any funding to complete the remaining cleanup project at Sandia 
National Lab. It is my understanding you are waiting for the State of 
New Mexico to give the final approval before you place a cap on the 
landfill. Why has the State not approved this final action and what 
source of funding do you intend to use to complete this project?
    Answer. The Sandia Site Office has been working closely with the 
New Mexico Environment Department (NMED) to satisfy additional requests 
for information to support the proposed regulatory decision to allow 
placement of a permanent cap on the mixed waste landfill. This has 
resulted in additional scope being added to the project in the form of 
a requirement for development and application of a contaminant fate and 
transport model, collection of soil gas samples from the landfill and 
immediate surroundings, participation in a formal public review and 
comment resolution on the Corrective Measures Implementation Plan, a 
Corrective Measures Implementation Report, and a Long-term Monitoring 
and Maintenance Report. These products must be delivered and accepted 
by NMED and the process activities completed before approval can be 
provided for installation of the final landfill remedy. Some measures, 
such as preparation of the landfill surface to allow emplacement of the 
cap sub-grade soil layer, have been permitted by the regulators, and 
this work has been completed.
    We had not anticipated the extent of these additional requirements. 
Unexpended project funds from fiscal year 2006 are being used to fund 
this work but the additional scope requires funds that exceed the 
available balances. Under the Revised Continuing Appropriations 
Resolution, 2007, the Department has provided an additional $4.7 
million to support these activities.
               consolidation of special nuclear material
    Question. Mr. Rispoli, the Department has inventories of special 
nuclear material including plutonium, highly enriched uranium and spent 
fuel that exceeds our national security mission needs and is very 
costly to secure. As I have expressed several times before, I believe 
the Department needs to work quickly to consolidate and dispose of this 
material to reduce costs and eliminate the proliferation risks. Can you 
please explain to the subcommittee your strategy for the consolidation 
of this material and challenges you face in consolidating this 
material?
    Answer. The Department's Nuclear Materials Disposition and 
Consolidation Coordination Committee (NMDCCC), established in 2005 to 
address nuclear material consolidation and disposition issues, recently 
completed an implementation plan (IP) for consolidation and disposition 
of surplus non-pit, weapons-usable plutonium. While the IP recommends 
consolidating this material to the Savannah River Site (SRS), any 
decisions on proposed consolidation and disposition are subject to 
review under the National Environmental Policy Act (NEPA), other 
applicable laws, and a final determination by the Secretary.
    Challenges facing the Department for consolidating plutonium 
include completing required environmental reviews, assuring support 
from the South Carolina Congressional delegation and local authorities, 
and complying with legal requirements. For example, prior to shipping 
additional weapons-usable plutonium to SRS, Public Law 107-107, 
National Defense Authorization Act for Fiscal Year 2002, requires 
submittal to Congress of a plan for disposal of plutonium that would 
have been disposed of using the Plutonium Immobilization Plant that was 
cancelled in 2002.
    With respect to highly enriched uranium (HEU) and spent fuel, the 
deputy secretary has approved the Enriched Uranium (EU) Disposition 
Project which would provide for continued operation of SRS's H-Canyon 
facilities. As part of the project, surplus HEU materials currently 
managed by the Environmental Management Office, the National Nuclear 
Security Administration (NNSA), and Naval Reactors will be sent to SRS 
and processed in the H-Canyon facilities for disposition purposes. 
Spent fuel currently stored at the Idaho National Laboratory (INL), and 
in various domestic facilities and other countries, that is aluminum-
clad (this is the only type of cladding material that is compatible 
with the H-Canyon processing capabilities) will also be shipped to SRS 
and be disposed of through processing in H-Canyon, along with the 
aluminum-clad spent fuel already at SRS. The uranium from processing 
the spent fuel and HEU materials is planned to be blended down to a low 
enrichment and sold to the Tennessee Valley Authority for use in 
manufacturing fuel for its commercial nuclear plants. As a result, 
additional waste will be generated from continued operation of H-
Canyon, but that amount is relatively small. Approximately 225 
additional Defense Waste Processing Facility (DWPF) canisters will 
result from operation of H-Canyon through 2019. There is sufficient 
space in the site tanks to store this waste prior to transferring it to 
DWPF for vitrification. The EU disposition plan also includes 
processing in H-Canyon of approximately two metric tons of weapons-
usable plutonium that cannot be disposed of using the Mixed-Oxide (MOX) 
Fuel Fabrication Facility or the proposed Plutonium Disposition Project 
due to specific contaminants. Therefore, H-Canyon processing is 
critical to our efforts to consolidate plutonium.
      mixed-oxide (mox) fuel fabrication facility vs.vitrification
    Question. Mr. Rispoli, your budget requests $15 million to perform 
design work on the Plutonium Vitrification Demonstration project in 
South Carolina. As I understand it, this facility will be able to 
handle up to 13 tons of plutonium that can not be processed through the 
MOX plant. Could you explain to the subcommittee why you are pursuing 
this project and why this is not an acceptable solution for the 34 tons 
of U.S. surplus weapons grade plutonium the United States and Russia 
have agreed to eliminate from their stockpiles.
    Answer. We have proposed the Plutonium Vitrification Disposition 
Project in order to be able to disposition plutonium that, because of 
isotopic content and impurities such as chlorides and fluorides, are 
not suitable for processing in the MOX Fuel Fabrication Facility as 
currently designed. This plutonium was to be disposed of using the 
Plutonium Immobilization Plant, but construction of that facility was 
cancelled in April 2002 when the decision was made to proceed with only 
the MOX plant. We are required by law to have a disposition path out of 
the State for all surplus plutonium stored at the Savannah River Site 
(SRS) and the proposed Plutonium Vitrification Disposition Project, 
together with the MOX plant and continued operation of the H-Canyon 
facilities, will ensure there is a disposition path for all plutonium 
currently at SRS or that may be sent there in the future. The proposed 
Project is subject to review pursuant to the National Environmental 
Policy Act (NEPA) and compliance with other applicable laws relating to 
potential consolidation and disposition of plutonium at SRS.
    The current concept, process, and planned capability of the 
Plutonium Vitrification Disposition Project would be unsuitable to 
disposition the additional 34 metric tons (MT) of surplus plutonium 
planned to be processed in the MOX facility. Significant changes would 
be required in the design, footprint, process and throughput of the new 
project. It is envisioned that the proposed Plutonium Vitrification 
Disposition Project would be designed to fit in the basement of an 
existing facility and sized to disposition up to approximately 13 MT of 
lower purity plutonium by vitrifying it in lanthanide borosilicate 
(LaBS) glass. LaBS glass is well suited for plutonium with higher 
quantities of impurities and does not degrade the quality and 
performance of the product for long-term storage and disposal. However, 
when mixed with plutonium, LaBS glass produces a significant radiation 
field. This effect is manageable for vitrifying the plutonium not 
suitable for the planned MOX facility, but would not be desirable for a 
significantly longer campaign such as the additional 34 MT of higher 
purity plutonium. That is because in order to maintain the radiation 
exposure to operators as low as reasonably achievable, it would take 
about an additional 20 years of operation to vitrify the additional 34 
MT of plutonium or require a substantially more complex and costly 
facility. Therefore, adding the 34 MT of surplus plutonium planned to 
be processed in the MOX facility to the 13 MT planned to be vitrified 
would likely require changing the waste form from glass to ceramic in 
order to eliminate high radiation.
    Although the reaction that causes the high radiation levels does 
not occur when the plutonium is mixed with ceramic, the ceramic does 
not accept impurities and maintain its quality as well as glass. Much 
of the 13 metric tons of plutonium contains significant impurities that 
could result in cracking of the ceramic pellets. The cancelled 
Plutonium Immobilization Plant that was to immobilize plutonium in 
ceramic required blending a large amount of pure plutonium with the 
impure plutonium in order to dilute the impurities to an acceptable 
level. There is not enough pure Pu in the 13 metric tons to dilute the 
impurities to an acceptable level.
    The lanthanide borosilicate glass planned to be used in the 
vitrification process is preferred over ceramic for vitrifying 
relatively lower quantities of impure plutonium not only because it can 
accommodate more impurities than the ceramic, but also because addition 
of the lanthanide allows a larger amount of plutonium to be included in 
each can of glass. Also, the change would require construction of a new 
and larger facility (similar to that of the cancelled Plutonium 
Immobilization Plant) vs. modification of an existing facility because 
production of the ceramic waste form requires much more space than 
exists in the K-Area facility.
    Additionally, the Plutonium Vitrification Disposition Project would 
utilize the can-in-canister concept where small cans of vitrified 
plutonium are placed inside Defense Waste Processing Facility (DWPF) 
canisters and the canisters are then filled with high activity waste 
glass. The cans of vitrified plutonium need the high-level waste glass 
to surround them in order to qualify the waste package for disposal at 
Yucca Mountain; this high-level waste glass also provides resistance to 
proliferation. With a ceramic waste form and the additional 34 MT of 
plutonium, approximately 100,000 cans of ceramified plutonium would be 
generated, requiring 3,600 DWPF canisters of high activity glass. That 
would require processing beyond the planned DWPF completion date of 
2026 by approximately a decade and require about 2,000 more DWPF 
canisters of glass waste than will be produced from processing all of 
the Savannah River tank waste. Taking into account the additional waste 
resulting from the entire Enriched Uranium Disposition Project through 
2019, which is approximately 200 to 250 additional DWPF canisters, 
there is simply not enough high-level radioactive glass at SRS to over-
pour the plutonium glass or ceramic generated from 13 MT of plutonium 
to meet the spent fuel standard required to assure proliferation 
resistance in the repository. Since neither the plutonium-ceramic nor 
the vitrified plutonium can be sent to the geologic repository without 
being inside DWPF canisters filled with glass waste, this approach is 
not viable.
    For all these reasons, the proposed Plutonium Vitrification 
Disposition Project is not viable for the disposition of the plutonium 
destined for the MOX plant.
        washington state--high level waste vitrification project
    Question. Mr. Rispoli, the Department has faced enormous challenges 
in containing the cost of this massive project to vitrify the millions 
of gallons of high level waste stored in underground tanks in 
Washington. This project was originally budgeted for $5.7 billion in 
2003. Today, after several independent evaluations, the Department 
estimates that the total projects cost will be $12.3 billion and will 
be completed by 2019. Can you please explain why the original baseline 
was so low and why you believe this new cost estimate will not escalate 
further over the next decade?
    Answer. The Department of Energy, with the advice and assistance of 
the U.S. Army Corps of Engineers has implemented several major 
initiatives to ensure that we fully understand what is required to 
successfully complete the Waste Treatment Plant (WTP) project and begin 
plant operations.
    The major reasons for the increases in the estimated cost and the 
delays in schedule result from faulty initial estimates and the overly 
optimistic treatment of uncertainty and risk for the following: (1) 
design of novel technology for a large, complex nuclear-chemical plant 
(pulse jet mixing pumps, non-Newtonian fluids, etc), (2) quantity, 
procurement and availability of equipment and materials, (3) 
availability and productivity of professional and craft labor, and (4) 
environmental and safety regulatory compliance (fire proofing, seismic 
ground motion, etc.). These were further aggravated by conditions 
created by deficiencies in the acquisition strategy and management 
approach. It is important to note that the March 2003 performance 
baseline was established with a design completion of 30 percent, using 
a majority of estimating tools which were based on parametric costs 
from similar facilities. The December 2006 performance baseline was 
established with a design completion of 78 percent, using a majority of 
estimating tools which were based on costs from material take-offs. 
This provides a more highly detailed cost estimate that enables higher 
confidence.
    The Department has increased its confidence in the success of this 
project as a result of implementing several key actions that addressed 
its project management capability, management of calculating technical 
risks, and the project's cost and schedule baseline. Over the past 18 
months, the Department has retained a broad range of external, senior 
professionals from private industry, academia, and other government 
agencies to thoroughly review the key elements of the WTP. Key 
initiatives to reinforce the confidence in the project are as follows:
Strengthen Project Management
    The Assistant Secretary for Environmental Management has 
established a Headquarters' senior-level waste treatment and 
immobilization plant oversight team. The team is fully engaged in all 
aspects of the project;
    The Department commissioned an independent expert team that 
completed an after action fact linding review to better understand the 
management issues associated with the project. All of the 
recommendations have been or are in the process of being addressed;
    DOE has recruited talented personnel in the areas of contracting, 
procurement, contract law, and project management;
    The WTP contractor is implementing an earned value management 
system (EVMS) to track variances to the baseline. The system is being 
independently certified to be fully compliant with the requirements of 
the American National Standards Institute/Environmental Industry 
Association (ANSI/EIA) 748-A-1998. This system, currently in use by the 
contractor as a management tool, will accurately report project cost 
and schedule performance;
    A structured daily, weekly, and monthly project reporting system is 
in place, and a Quarterly Performance Review is conducted by the 
Assistant Secretary for Environmental Management;
    The Secretary of Energy is engaged in the WTP project and meets 
with senior principals of Bechtel National Inc. on a regular basis.
Verify Technology
    The Department commissioned a broad group of distinguished 
independent senior professionals from private industry and academia to 
thoroughly review all technology aspects of the WTP process flow sheet. 
The flow sheet report was finalized in March 2006 and identified 28 
issues that have already been or currently are being addressed;
    DOE is on a path forward to having the final earthquake seismic and 
ground motion criteria approved by the Secretary of Energy. DOE has 
retained the U.S. Army Corps of Engineers to oversee the drilling of 
one core hole and three deep boreholes to confirm the geophysical 
properties of the layers of bedrock below the WTP project site. 
Borehole drilling commenced in June 2006 and was completed in October 
2006. We forecast that the Secretary of Energy will approve the final 
seismic and ground motion criteria by September 2007;
    The Defense Nuclear Facilities Safety Board has been actively 
engaged in the seismic issue and all safety related technical issues 
from the commencement of the project. Also, I meet monthly with the 
Board to share information and discuss issues.
Establish a Credible Project Cost and Schedule
    In August 2006, the U.S. Army Corps of Engineers delivered to the 
Department an independent review of the contractor's May 2006 estimate-
at-completion, which provided a qualified validation of the cost and 
schedule baseline--with the addition of $650 million and three months 
of schedule contingency.
    In addition, two other external independent reviews were 
implemented (March 2006 and October 2006) to confirm the quality of the 
WTP cost and schedule baseline and project management systems.
    In December, 2006, as a result of the independent reviews, the 
Department's Office of Engineering and Construction Management 
validated a final total project cost of $12.263 billion and schedule 
completion date of November 2019. The revised project cost and schedule 
was approved by the Deputy Secretary of Energy on December 22, 2006.
    Based on the actions we have taken and the reviews by independent 
industry experts, the project is now reinforced with a strong project 
management framework, a clear understanding of the technical issues, 
and a credible project cost and schedule baseline.
                 washington state--tri-party agreement
    Question. Mr. Rispoli, in 1989 the Department entered into a Tri-
Party Agreement between the U.S. EPA, the State of Washington and DOE 
to set cleanup milestone for Office of River Protection. Since the 
agreement has been signed, the Department has been forced to work 
through hundreds, if not thousands of changes to this agreement and 
renegotiate revisions to the compliance orders. It seems inevitable 
that the Department will miss milestones and will be forced to 
renegotiate the consent agreement when neither party fully understands 
the extent and the nature of the existing contamination. It appears 
that the Department is accepting an enormous amount of risk to sign-up 
to an enforceable agreement without understanding the full extent of 
the cleanup. How has the Department worked through the thousands of 
missed agreed upon milestones?
    Answer. The Department of Energy (DOE) remains committed to the 
cleanup at the Hanford site in accordance with the Tri-Party Agreement 
(TPA). It is important to remember that the TPA is a ``living'' 
document that was designed to be updated. For example, there are TPA 
milestones that call for new milestones to be defined at specified 
points in time. Similarly, new sections are added to the TPA, as 
appropriate. To clarify, DOE has missed relatively few agreed upon 
milestones. In fact, DOE has completed 96 percent of the milestones 
within schedule from the start of the TPA. There were originally 161 
milestones, and today there are 950 completed milestones and 235 
milestones to go for a total of 1,185 milestones. In accordance with 
the terms of the TPA, there have been 442 approved change requests, 6 
amendments, and 3 modifications known as ``Director's Determinations.''
    As with any ``living'' document, the TPA parties explore 
opportunities to improve safety, effectiveness, efficiency, and 
flexibility of the Hanford cleanup. To do this, the parties engage in 
regular dialog to ensure the milestones make sense and further the 
intent of the TPA.
    Question. What has been the process for the Department to engage 
the other interested parties to work out an achievable solution?
    Answer. The Department of Energy (DOE), the Environmental 
Protection Agency, and the State of Washington have engaged in a series 
of large and small group meetings to understand technical and schedule 
issues regarding the Waste Treatment Plant, supplemental treatment for 
low-activity tank waste, tank waste retrieval, and groundwater 
remediation. The goal of all of the parties remains safe, timely, risk-
informed cleanup of the Hanford site.
                                 ______
                                 
            Questions Submitted to Hon. Edward F. Sproat III
             Questions Submitted by Senator Byron L. Dorgan
                           second repository
    Question. Mr. Sproat, I read an article that quoted you as saying 
that the threat of a second nuclear fuel repository would convince 
Congress to approve the legislation the administration sent up 
yesterday. I couldn't disagree more with this analysis. For Members to 
take your threat seriously it must be believable and I don't believe 
your statement is. Of all the options we have before us today, 
including GNEP, do you believe this administration would endorse the 
creation of a second repository?
    Answer. This was never intended to be threat of a second 
repository; rather, it was meant to communicate a statutory 
requirement. Section 161(b) of the Nuclear Waste Policy Act (NWPA), as 
amended, requires the Secretary of Energy to report on the need for a 
second repository. That report is required to be submitted to the 
President and the Congress between January 1, 2007 and January 1, 2010. 
Without passage of the provisions in the administration's proposed 
legislation that would remove the administrative capacity limitation 
provisions in section 114(d) of the NWPA limiting the capacity of Yucca 
Mountain to 70,000 metric tons of heavy metal until a second repository 
is operational, this report will likely conclude that a second 
repository is needed to dispose of the commercial spent nuclear fuel 
from the existing fleet of commercial reactors and the remaining 
defense high-level radioactive waste that cannot be disposed within the 
70,000 metric ton limit. While GNEP spent nuclear fuel recycling has 
the potential to reduce the volume of spent nuclear fuel to be disposed 
of in Yucca Mountain it will be many years before there is sufficient 
information on which to make reasonable projections as to when and to 
what extent advanced recycling facilities will be deployed.
                      yucca mountain authorization
    Question. Yesterday, the administration sent up legislation, 
identical to the version from the 109th Congress, which I introduced on 
behalf of the administration. It is my understanding that passage of 
this legislation is critical if you are to meet the 2017 operations 
goal you have set for the project. If Congress fails to enact this 
legislation, what impact will this have on the opening or operations of 
Yucca Mountain?
    Answer. First, without passage of the administration's legislation 
the Nuclear Regulatory Commission cannot grant a construction 
authorization for Yucca Mountain because permanent land withdrawal is 
required as a condition to receive a construction authorization. 
Second, without the funding reform proposed in the legislation, the 
Department is highly unlikely to have sufficient budget authority 
available to construct the repository to our best-achievable schedule 
for initial repository operation in 2017.
                     canister handling and storage
    Question. Mr. Sproat, the budget discusses a new canister storage 
approach that will simplify the canister handling operations at Yucca 
Mountain. Can you please explain this new approach has [sic] how it 
will impact the overall project costs? What do utilities think of this 
new approach?
    Answer. The canistered approach, utilizes the transportation, aging 
and disposal (TAD) canister for the receipt of most of the commercial 
spent nuclear fuel expected to be disposed of at Yucca Mountain. The 
use of the TAD canister will eliminate hundreds of thousands of 
individual spent fuel assembly handling operations at the Yucca 
Mountain facilities, which will allow the Department to simplify the 
design of the repository surface facilities and their operations. This, 
in turn, will result in less costly facilities and reduced operating 
costs. Regarding overall program costs, any increased program costs for 
the purchase of the TAD canisters is expected to be off-set by 
programmatic savings in facility construction and operations. The 
Department cannot speak for utilities as to their views; on this 
approach. However, during the development of the TAD performance 
specification requirements, the Department did attend several industry 
meetings to receive technical input for the TAD performance 
specification. At these meetings the industry was generally supportive 
of the canister development effort.
                       government legal liability
    Question. Mr. Sproat, included in your statement you indicate that 
Federal Government's legal liability for failure to accept spent fuel 
by 1998 will increase by $500 million annually after 2017. This will be 
on top of the existing $7 billion liability. Why isn't the 
administration doing anything in the meantime to reduce or eliminate 
this well defined problem? Why wait until 2017?
    Answer. If the Department starts accepting spent nuclear fuel in 
2017, we estimate that the liability to the U.S. Government to be $7 
billion; that liability will grow by $500 million per year every year 
the repository is further delayed. The Department believes that the 
best approach to limiting the Government's liability is to begin 
acceptance of commercial spent fuel at the repository at the earliest 
possible date. The passage of the administration's proposed legislation 
to ensure the timely opening of Yucca Mountain is the most significant 
step urgently needed to limit the liability. The Department also 
believes that an interim storage facility at another location could not 
be sited, licensed, constructed and begin operations appreciably sooner 
than the Yucca Mountain repository begins accepting spent fuel. 
Moreover, under the current law, an interim storage facility could not 
be constructed until after NRC grants a construction authorization for 
the repository and then only an amount of spent fuel equivalent to 
10,000 metric tons of heavy metal could be accepted at the storage 
facility until the repository begins operations, at which time the 
limit would increase to 15,000 metric tons.
    Question. Why hasn't the administration considered an interim 
strategy to stage the fuel or set it aside for recycling in light of 
the looming legal liability?
    Answer. The Department's best-achievable schedule for commencing 
operations of the Yucca Mountain repository is 2017. The Department 
believes that interim storage could not be undertaken appreciably 
sooner than when Yucca Mountain could be open. Moreover, under the 
current law, an interim storage facility could not be constructed until 
after NRC grants a construction authorization for the repository and 
then only an amount of spent fuel equivalent to 10,000 metric tons of 
heavy metal could be accepted at the storage facility until the 
repository began operation, at which time the limit would increase to 
15,000 metric tons.
                            nevada rail line
    Question. Mr. Sproat, this budget requests $15 million to support 
work on the Nevada rail line, yet the legislation you have just sent to 
the Hill requires Congress to withdraw land for this rail line. Why 
would we spend any amount of funding in this project until we are 
certain that we can get access to the land we will need to build the 
project?
    Answer. The President's fiscal year 2008 budget requests $15 
million for transportation projects, which includes $5 million for work 
with States, Tribes, and other stakeholders on national transportation 
planning efforts. The $10 million requested for work on the Nevada Rail 
Line Project will be used to complete the environmental impact 
statement on possible rail alignments. This information is necessary to 
define the ultimate path a rail line to Yucca Mountain would take in 
Nevada and to support the granting of either a permanent withdrawal of 
lands or a right-of-way for the Nevada Rail Line. The proposed 
legislation would withdraw land for the repository but not for the 
Nevada Rail line.
                                layoffs
    Question. Mr. Sproat, the Department recently announced layoffs of 
contractor staff in order to restructure the workforce. Can you tell me 
how this will impact the project and if you expect additional layoffs 
during this fiscal year?
    Answer. The OCRWM prime contractor, Bechtel SAIC Company (BSC) 
located in Nevada developed a workforce restructuring plan (WRP) that 
is consistent with the level of funding provided in fiscal year 2007. 
The WRP will result in layoffs of approximately 65 BSC employees. This 
will allow BSC to assess and realign, where necessary, those skills 
that are essential to successfully completing the License Application 
by February 2008. The funding reduction and the WRP have no impact on 
the license application submission, but the program will defer non 
license application related activities in fiscal year 2007. Because the 
funding received by the program for fiscal year 2007 was $100 million 
less than the President requested, we do anticipate making additional 
reduction in force later in fiscal year 2007 and in fiscal year 2008. 
The timing and size of those further reductions are currently being 
evaluated.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. This hearing is recessed.
    [Whereupon, at 3:32 p.m., Wednesday, March 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
